<html>
<title> - TERRORIST ATTACK IN BENGHAZI: THE SECRETARY OF STATE'S VIEW</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                     TERRORIST ATTACK IN BENGHAZI: 
                     THE SECRETARY OF STATE'S VIEW 

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 23, 2013

                               __________

                           Serial No. 113-11

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

78-250 PDF                       WASHINGTON : 2013 



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Hillary Rodham Clinton, Secretary of State, U.S. 
  Department of State............................................     4

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Hillary Rodham Clinton: Prepared statement.........     9

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Tom Marino, a Representative in Congress from the 
  Commonwealth of Pennsylvania: Prepared statement...............    63
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    66
The Honorable Luke Messer, a Representative in Congress from the 
  State of Indiana: Prepared statement...........................    69
The Honorable Brian Higgins, a Representative in Congress from 
  the State of New York: Prepared statement......................    71
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Material submitted for the record    72
Written responses from the Honorable Hillary Rodham Clinton to 
  questions submitted for the record by:
  The Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    77
  The Honorable Dana Rohrabacher, a Representative in Congress 
    from the State of California.................................    90
  The Honorable Steve Chabot, a Representative in Congress from 
    the State of Ohio............................................   104
  The Honorable Joe Wilson, a Representative in Congress from the 
    State of South Carolina......................................   107
  The Honorable Michael T. McCaul, a Representative in Congress 
    from the State of Texas......................................   114
  The Honorable Tom Marino, a Representative in Congress from the 
    Commonwealth of Pennsylvania.................................   123
  The Honorable Jeff Duncan, a Representative in Congress from 
    the State of South Carolina..................................   132
  The Honorable Adam Kinzinger, a Representative in Congress from 
    the State of Illinois........................................   134
  The Honorable George Holding, a Representative in Congress from 
    the State of North Carolina..................................   139
  The Honorable Trey Radel, a Representative in Congress from the 
    State of Florida.............................................   143
  The Honorable Doug Collins, a Representative in Congress from 
    the State of Georgia.........................................   144
  The Honorable Mark Meadows, a Representative in Congress from 
    the State of North Carolina..................................   146
  The Honorable Ted S. Yoho, a Representative in Congress from 
    the State of Florida.........................................   158
  The Honorable Luke Messer, a Representative in Congress from 
    the State of Indiana.........................................   164


                     TERRORIST ATTACK IN BENGHAZI: 
                     THE SECRETARY OF STATE'S VIEW

                              ----------                              


                      WEDNESDAY, JANUARY 23, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2:02 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing of the Committee on Foreign 
Affairs will come to order.
    Welcome, Madam Secretary.
    Secretary Clinton. Thank you.
    Chairman Royce. Madam Secretary, on behalf of the entire 
committee, let me say how glad we are to see you healthy, and 
how much we appreciate your desire to testify about Benghazi 
before you leave office.
    And let me also say that our appreciation extends to the 
work that you have performed on behalf of our country.
    This is our committee's opening hearing of this Congress. 
It is my initial hearing as its chairman. Examining the first 
murder of a U.S. Ambassador in nearly 35 years and the killing 
of three other brave Americans, is not a welcome place to 
start, but it is necessary.
    The State Department must learn from its mistakes to better 
protect its employees, many of whom serve in hostile 
environments. Unfortunately, threats to Americans abroad are 
growing. Particularly, those threats are growing in North 
Africa. The attacks last week in Algeria again show the nature 
of the danger.
    I support having a wide diplomatic presence. We can't 
retreat, as you recognized in your testimony, but it has to be 
done with the safety of our personnel foremost in mind.
    This committee intends to work with your department in a 
bipartisan way and to work to improve security. Every 
organization has its shortcomings; few welcome them being 
highlighted. But it is this committee's job to get answers to 
the tough questions. Our goal is to identify where State 
Department management broke down, thus failing to protect our 
people in Benghazi. It is clear that the problem was not 
confined to a few individuals.
    The Accountability Review Board, convened by you, Madam 
Secretary, found ``systemic failures and leadership and 
management deficiencies at senior levels within two bureaus of 
the State Department.'' According to the board, these systemic 
failures led to the ``grossly inadequate security in Libya.''
    The Benghazi compound was facing a storm of militancy, a 
flood of weapons, and a deteriorating security environment. 
Attacks were escalating on the compound, yet the compound was 
inexplicably forced to rely on unarmed Libyan guards and a 
militia that included extremist elements. No wonder the board 
found a pervasive realization among those in Benghazi that 
security was not a high priority for Washington. According to 
the report, the board found that responsibility stopped at the 
Assistant Secretary level, below the department's most senior 
management. This seems to contrast with the recommendation of 
the 1999 Accountability Review Board on the East Africa 
bombings, which said that, ``The Secretary of State should take 
a personal and active role in security issues.''
    This committee is concerned that the department's most 
senior officials either should have known about the worsening 
security situation in Benghazi or did know something about that 
security situation. Either way, the point is that security 
requests were denied. I am not sure the board saw the full 
picture. And if not, its report is not a complete blueprint for 
fixing things.
    The State Department must get this right. Al-Qaeda and its 
affiliates will very likely be targeting other diplomats for 
years to come.
    Madam Secretary, the committee stands ready to help.
    I learned this morning that you and the administration have 
proposed legislation to fix the review board, which the 
committee looks forward to considering.
    Today's discussion may turn to funding. But when reading 
the conclusions of the board, one must ask how more money would 
have made a difference in a bureaucracy plagued by what the 
board called systemic failures. After all, as the security 
situation in Libya worsened, the State Department turned away 
free security assets from the Department of Defense.
    State Department officials have testified that funding was 
not an issue. More resources may have been needed in some 
areas, but the tragedy of Benghazi was rooted in bad decisions.
    Finally, the Benghazi perpetrators must be apprehended, or 
they must be killed. It is troubling that Tunisia recently 
released a key suspect. Poor Libyan cooperation has hampered 
the FBI's investigation. Success here is a matter of justice. 
And it is also a matter of signaling to militants that there is 
no place for them to hide if they attack U.S. personnel.
    I will now turn to the distinguished ranking member, Mr. 
Engel, for his opening remarks.
    Mr. Engel. Thank you very much, Mr. Chairman, for holding 
this important meeting. I hope we can use this as an 
opportunity to seriously examine the steps we need to take to 
prevent a repeat of the tragedy in Benghazi, rather than 
engaging in gotcha politics that make it more difficult to 
achieve this bipartisan goal.
    Madam Secretary, as the new ranking member on the Foreign 
Affairs Committee, let me say on behalf of the Democratic 
members of this committee, we would like to welcome you back to 
our committee, and we are glad that you are feeling better. 
This will likely be your final appearance before our committee. 
And I want to take this opportunity to let you know how much we 
appreciate your outstanding and tireless efforts to represent 
our country in the international community. I have no doubt 
that you will continue to serve our Nation in some capacity, as 
you have for so many years, and I look forward to working with 
you in the future.
    And might I add, as a New Yorker, I feel especially proud 
of the wonderful and outstanding job you have done as Secretary 
of State. I think that when we look at the outstanding 
Secretary of States in our history of our country, you will be 
right up there at the very, very top. The way you have worked; 
the tireless effort you have made crisscrossing the globe so 
many times. You have just been indispensable to all of us as 
Americans. I want to thank you personally on behalf of all the 
Democrats, and on behalf of all Americans, Democrats and 
Republicans. We really want to thank you.
    Mr. Chairman, the committee has no greater responsibility 
than making sure that the men and women of the State Department 
and USAID, and other public servants who work abroad, are 
provided the security they deserve. We must do what we can to 
minimize the threats faced by our diplomats and aid workers, 
but we also must recognize that some risk is inherent in the 
practice of effective diplomacy. We cannot advance America's 
interests around the world if we isolate behind Embassy walls 
or limit the deployment of our diplomats to low-risk 
environments. Let's not learn the wrong lesson from today's 
hearing.
    The Accountability Review Board, or ARB, convened by 
Secretary Clinton, found a number of failures that resulted 
from a lack of leadership in two State Department bureaus, as 
well as woefully inadequate local security in Benghazi. 
Clearly, mistakes were made. But let's be absolutely clear. 
Barack Obama was not responsible for the Benghazi attack any 
more than George W. Bush was responsible for the 9/11 attacks, 
or Ronald Reagan was responsible for the attacks on our Marine 
barracks in Beirut, which killed over 200 Marines.
    And frankly, whether it was called a terrorist attack or 
not in the immediate aftermath, as far as I am concerned, is 
irrelevant. We just have to make sure that it never happens 
again so that in the future our people are protected. That is 
what I want to get out of all of this.
    So, Madam Secretary, we commend you for accepting all of 
the ARB recommendations, and welcome your commitment to begin 
implementing them by the time you leave the department. Even 
before the ARB submitted its conclusions, the department moved 
to address certain shortcomings through its increased security 
proposal. The vast majority of the funding for this proposal 
would come from funds previously appropriated for lower 
priority programs. I hope Congress will move without delay to 
give the department the transfer authority it needs to start 
applying these changes. It is important to remember that 
security is not a one-off endeavor. Indeed, it is a long-term 
responsibility and investment.
    In that context, the members of the ARB, led by Ambassador 
Pickering and Admiral Mullen, highlighted the State 
Department's struggle to get the resources it needs. The 
ongoing problem had led to a culture at the department in which 
some senior managers appear to be more interested in conserving 
resources than in achieving specific goals. The ARB report 
says, ``The solution requires a more serious and sustained 
commitment from Congress to support State Department needs.''
    Regrettably, it is clear that Congress is still failing to 
meet this commitment. In the most recent State Department 
funding bill approved by the House Appropriations Committee, 
the administration's request for Embassy security, 
construction, and maintenance was cut by $112 million, and 
worldwide security protection reduced by $149 million. The 
Senate, by comparison, did not cut either account.
    So let me again reiterate what I just said about Congress' 
responsibility. Over the past 2 years alone, the 
administration's requests for diplomatic security funding has 
been slashed by more than $0.5 billion in Congress. This makes 
it impossible for the State Department to build enough new 
secure diplomatic facilities or improve those that already 
exist.
    The current appropriations bill for Fiscal Year 2013 
continues this negative trend. The measure reported out of the 
House Appropriations Committee hacked base funding for 
worldwide security protection and Embassy security, 
construction and maintenance by more than $260 million. The 
Senate Appropriations Committee fully funded both requests.
    So what I am saying here is that we have much work to do 
for ourselves. If we truly want to maintain a global reach, 
then we need to make the necessary investments in safeguarding 
our personnel who serve in dangerous environments.
    So, Mr. Chairman, you have indicated your intention to work 
on a State Department authorization bill. And I would like to 
work with you in a bipartisan manner to craft legislation that 
improves the department's ability to manage its resources and 
provide the funding necessary to secure our people and 
facilities globally.
    So I thank you, and I look forward to the Secretary's 
testimony.
    Chairman Royce. Thank you, Mr. Engel.
    To help us understand the State Department's response to 
the Benghazi attack, we are joined today by Hillary Rodham 
Clinton, the 67th Secretary of State. She has had a long career 
in public service, and for the past 4 years, Secretary Clinton 
has served as President Obama's Secretary of State. She will 
soon move on to the next chapter in her distinguished career.
    Madam Secretary, without objection, your full statement 
will be made part of the record.
    And all members here will have 5 days to submit statements 
and questions for the record, subject to the limitations of the 
committee rules.
    Madam Secretary, please begin.

STATEMENT OF THE HONORABLE HILLARY RODHAM CLINTON, SECRETARY OF 
                STATE, U.S. DEPARTMENT OF STATE

    Secretary Clinton. Thank you very much, Mr. Chairman.
    And I thank you and the ranking member and members of the 
committee, both of longstanding tenure and brand new members.
    And I appreciate your patience for me to be able to come to 
fulfill my commitment to you, actually to the former 
chairwoman, that I would be here to discuss the attack in 
Benghazi.
    I appreciate this opportunity. I will submit my full 
testimony for the record.
    I want to make just a few points. First, the terrorist 
attacks in Benghazi that claimed the lives of four brave 
Americans, Chris Stevens, Sean Smith, Tyrone Woods, and Glen 
Doherty, are part of a broader strategic challenge to the 
United States and our partners in North Africa. I think it is 
important we understand the context for this challenge as we 
work together to protect our people and honor our fallen 
colleagues.
    Any clear-eyed examination of this matter must begin with 
this sobering fact: Since 1988, there have been 19 
Accountability Review Boards investigating attacks on American 
diplomats and their facilities. Since 1977, 65 American 
diplomatic personnel have been killed by terrorists. In 
addition to those who have been killed, we know what happened 
in Tehran with hostages being taken in 1979; our Embassy and 
Marine barracks bombed in Beirut in 1983; Khobar Towers in 
Saudi Arabia 1996; our Embassies in East Africa in 1998; 
consulate staff murdered in Jeddah, Saudi Arabia in 2004; the 
Khost attack in Afghanistan in 2009; and too many others.
    But I also want to stress the list of attacks that were 
foiled, crises averted, and lives saved is even longer. We 
should never forget that the security professionals get it 
right more than 99 percent of the time, against difficult odds, 
because the terrorists only need to get it right once.
    That is why, like all my predecessors, I trust the 
Diplomatic Security professionals with my life. Let's also 
remember that, as the chairman and the ranking member pointed 
out, administrations of both parties, in partnership with 
Congress, have made concerted and good-faith efforts to learn 
from the tragedies that have occurred to implement 
recommendations from the review boards, to seek the necessary 
resources to better protect our people in a constantly evolving 
threat environment.
    In fact, Mr. Chairman, of the 19 Accountability Review 
Boards that have been held since 1988, only two have been made 
public. I want to stress that, because the two that have been 
made public, coming out of the East Africa Embassy bombings and 
this one, are attempts, honest attempts by the State 
Department, by the Secretary, Secretary Albright and myself, to 
be as transparent and open as possible.
    We wanted to be sure that whatever these independent, 
nonpartisan boards found would be made available to the 
Congress and to the American people, because as I have said 
many times since September 11, I take responsibility, and 
nobody is more committed to getting this right. I am determined 
to leave the State Department and our country safer, stronger, 
and more secure.
    Now, taking responsibility meant not only moving quickly in 
those first uncertain hours and days to respond to the 
immediate crisis, but also to make sure we were protecting our 
people and posts in high-threat areas across the region and the 
world. It also meant launching an independent investigation to 
determine exactly what happened in Benghazi, and to recommend 
steps for improvement. And it also meant intensifying our 
efforts to combat terrorism and support emerging democracies in 
North Africa and beyond.
    Let me share briefly the lessons we have learned up until 
now. First, let's start on the night of September 11 itself and 
those difficult early days. I directed our response from the 
State Department and stayed in close contact with officials 
from across our Government and the Libyan Government. So I did 
see firsthand what Ambassador Pickering and Chairman Mullen 
called timely and exceptional coordination. No delays in 
decision-making. No denials of support from Washington or from 
our military. And I want to echo the review board's praise for 
the valor and courage of our people on the ground, especially 
our security professionals in Benghazi and Tripoli. The board 
said our response saved American lives in real time, and it 
did.
    The very next morning I told the American people, and I 
quote, ``Heavily armed militants assaulted our compound,'' and 
vowed to bring them to justice. And I stood later that day with 
President Obama as he spoke of an act of terror. Now, you may 
recall, at the same time period, we were also seeing violent 
attacks on our Embassies in Cairo, Sana'a, Tunis, and Khartoum, 
as well as large protests outside many other posts, from India 
to Indonesia, where thousands of our diplomats serve. So I 
immediately ordered a review of our security posture around the 
world, with particular scrutiny for high-threat posts. And I 
asked the Department of Defense to join Interagency Security 
Assessment Teams and to dispatch hundreds of additional Marine 
security guards. I named the first Deputy Assistant Secretary 
of State for High Threat Posts so that missions in dangerous 
places get the attention they need. And we reached out to 
Congress to help address physical vulnerabilities, including 
risks from fire and to hire additional Diplomatic Security 
personnel and Marine security guards.
    Second, even as I took these steps, I quickly moved to 
appoint the Accountability Review Board because I wanted them 
to come forward with their report before I left, because I felt 
the responsibility, and I wanted to be sure that I was putting 
in motion the response to whatever they found. What was wrong? 
How do we fix it? I have accepted every one of their 
recommendations. Our Deputy Secretary for Management and 
Resources, Deputy Tom Nides, who appeared before this committee 
last month, is leading a task force to ensure all 29 are 
implemented quickly and completely, as well as pursuing 
additional steps above and beyond the board.
    I pledged in my letter to you last month that 
implementation has now begun on all 29 recommendations. We have 
translated them into 64 specific action items. They were all 
assigned to specific bureaus and offices, with clear timelines 
for completion. Fully 85 percent are on track to be completed 
by the end of March, with a number completed already. But we 
are also taking a top to bottom look to rethink how we make 
decisions on where, when, and whether our people should operate 
in high-threat areas and how we respond. We are initiating an 
annual high-threat post review, chaired for the first time in 
American history, I suppose, by the Secretary of State, and 
ongoing reviews by the deputy secretaries to ensure that 
pivotal questions about security reach the highest level. And 
we will regularize protocols for sharing information with 
Congress.
    Now, in addition to the immediate action we took, and the 
review board process, we are moving on a third front, 
addressing the broader strategic challenge in North Africa and 
the wider region. Benghazi did not happen in a vacuum. The Arab 
revolutions have scrambled power dynamics and shattered 
security forces across the region. Instability in Mali has 
created an expanding safe haven for terrorists who look to 
extend their influence and plot further attacks of the kind we 
just saw last week in Algeria. And let me offer our deepest 
condolences to the families of the Americans and all the people 
from many nations killed and injured in the Algerian hostage 
crisis. We remain in close touch with the Government of 
Algeria, ready to provide assistance if needed, and also 
seeking to gain a fuller understanding of what took place so we 
can work together to prevent such terrorist attacks in the 
future.
    Now, concerns about terrorism and instability in North 
Africa are not new, of course. Indeed, they have been a top 
priority for this entire national security team. But we need to 
work together to accelerate a diplomatic campaign to increase 
pressure on al-Qaeda in the Islamic Maghreb and other terrorist 
groups in the region. I have conferred with the President of 
Libya, the Foreign Ministers and Prime Ministers of Tunisia and 
Morocco. Two weeks later, after the attack, I met with a very 
large group of regional leaders at the U.N. and was part of a 
special meeting focused on Mali and the Sahel. In October, I 
flew to Algeria to discuss the fight against AQIM. In November, 
I sent Deputy Secretary Bill Burns on an interagency group to 
Algiers to continue that conversation. And then, in my stead, 
he co-chaired the Global Counterterrorism Forum that was held 
in Abu Dhabi and a meeting in Tunis, working not only on 
building new democracies but reforming security services.
    These are just a few of the constant diplomatic engagements 
that we are having focused on targeting al-Qaeda's syndicate of 
terror, closing safe havens, cutting off finances, countering 
their extremist ideology, slowing the flow of new recruits. We 
continue to hunt the terrorists responsible for the attacks in 
Benghazi, and are determined to bring them to justice. And we 
are using our diplomatic and economic tools to support the 
emerging democracies, including Libya, in order to give them 
the strength to provide a path away from extremism.
    But finally, the United States must continue to lead in the 
Middle East, in North Africa, and around the globe. We have 
come a long way in the past 4 years, and we cannot afford to 
retreat now. When America is absent, especially from unstable 
environments, there are consequences: Extremism takes root; our 
interests suffer; and our security at home is threatened.
    That is why Chris Stevens went to Benghazi in the first 
place. I asked him to go. During the beginning of the 
revolution against Ghadafi, we needed somebody in Benghazi who 
could begin to build bridges with the insurgents and to begin 
to demonstrate that America would stand against Ghadafi. Nobody 
knew the dangers or the opportunities better than Chris, first, 
during the revolution, then during the transition: A weak 
Libyan Government, marauding militias, even terrorist groups, a 
bomb exploded in the parking lot of his hotel. He never 
wavered. He never asked to come home. He never said, let's shut 
it down, quit, and go somewhere else, because he understood it 
was critical for America to be represented in that place at 
that pivotal time.
    So, Mr. Chairman, we do have to work harder and better to 
balance the risks and the opportunities. Our men and women who 
serve overseas understand that we do accept a level of risk to 
represent and protect the country we love. They represent the 
best traditions of a bold and generous Nation. They cannot work 
in bunkers and do their jobs. But it is our responsibility to 
make sure they have the resources they need to do those jobs 
and to do everything we can to reduce the risks they face.
    For me, this is not just a matter of policy; it is 
personal, because I have had the great honor to lead the men 
and women of the State Department and USAID, nearly 70,000 
serving here in Washington and at more than 275 posts around 
the world. They get up and go to work every day, often in 
difficult and dangerous circumstances, thousands of miles from 
home, because they believe the United States is the most 
extraordinary force for peace and progress the Earth has ever 
known.
    And when we suffer tragedies overseas, the number of 
Americans applying to the Foreign Service actually increases. 
That tells us everything we need to know about the kind of 
patriots I am talking about. They do ask what they can do for 
their country. And America is stronger for it. So today, after 
4 years in this job, traveling nearly 1 million miles and 
visiting 112 countries, my faith in our country and our future 
is stronger than ever. Every time that blue and white airplane 
carrying the words ``United States of America'' touches down in 
some far off capital, I feel again the honor it is to represent 
the world's indispensable Nation, and I am confident that with 
your help, we will continue to keep the United States safe, 
strong, and exceptional. And I would be very happy to answer 
your questions.
    [The prepared statement of Secretary Clinton follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you, Madam Secretary.
    Our State Department personnel do certainly accept a level 
of risk. And they do so in order, as you have said quite 
properly, to continue to lead. And we recognize that hindsight 
is 20/20.
    But with regard to the Benghazi attacks, what is probably 
most disturbing, as the question comes before the committee and 
as the media looks at the situation, is that the dots here were 
connected ahead of time. The State Department saw this risk 
coming. And the State Department didn't act in order to prevent 
what could have been handled by answering the requests by our 
personnel.
    If we look at the State Department e-mail exchange on top 
officials in the bureau, written right after the assassination 
attempt on the British Ambassador in June 2012, here is the 
exchange,

        ``This is very concerning when you start putting the 
        events together, the anti-American demonstration, the 
        attack on our compound, and now the U.K. Motorcade 
        attack. If the tide is turning and they are now looking 
        for Americans and westerners to attack, that is a game 
        changer. We are not staffed or resourced adequately to 
        protect our people in that type of environment. We are 
        a soft target.''

    Here is the point. Senior officials fully appreciated the 
grave threats in Benghazi. They knew that al-Qaeda was there. 
They knew that our security was insufficient. But instead of 
adding security, in this case, they took it away. They withdrew 
mobile security detachment teams. They sent packing a special 
team that the Defense Department provided at no cost. If senior 
officials knew that our diplomats weren't safe and weren't 
adequately staffed, then why did they continue to withdraw 
security? I think that is the first question.
    In testimony this morning, you said you never saw those 
requests, and I understand that. Last month, though, Deputy 
Secretary Burns testified that memos regarding the 
deteriorating security situation did make their way to the 
seventh floor, to top management. So which senior official was 
he referring to when he talks about top management there? Who 
in the senior management was responsible for responding to 
those requests that were coming from the field? That would be 
my question.
    Secretary Clinton. Well, there are a lot of important 
questions in that, Mr. Chairman.
    And let me begin by saying that I was aware of certain 
incidents at our facility, and the attack on the British 
diplomat. I was briefed on steps taken to repair the breach in 
the perimeter wall after the June bombing, steps taken to 
reduce off-compound movements. Our team, led by security 
professionals, but also including intelligence professionals 
and others, did not recommend, based on those incidents, 
abandoning Benghazi, in part because over the last years, we 
have become accustomed to operating in dangerous places in 
Pakistan, in Iraq, and Afghanistan, and Yemen, and elsewhere. 
And we do, as by necessity, rely on security professionals to 
implement the protocols and procedures necessary to keep our 
people safe. And as I said in my opening statements, I have a 
lot of confidence in them because, you know, most of the time, 
they get it right.
    But I was also engaged, and I think this is what Deputy 
Secretary Burns was referring to, in the issues related to the 
deteriorating threat environment, particularly in Libya--there 
were other places across the region we were also watching--to 
try to see what we could do to support the Libyan Government to 
improve the overall stability of their country, to deal with 
the many militias. We have many programs and actions that we 
were working on. I had a number of conversations with leading 
Libyan officials. I went to Libya in October 2011. In fact, 
shortly before the attack on Benghazi, we approved Libya for 
substantial funding from a joint State-DoD account for border 
security, CT capabilities, and WMD efforts.
    Chairman Royce. I understand that, Madam Secretary.
    Secretary Clinton. So I want to just clarify that there 
were specific instances and assessments going on primarily by 
the security professionals related to individual posts, 
including Benghazi.
    Chairman Royce. But what I saw was a communique, which 
indicated that those assets, like the security site team, were 
in fact pulled. You had free of cost here, from the Department 
of Defense, a team in place. And on about August 15, some weeks 
before the attack, the question was, can we extend that 
security team? And the answer is no, it would be embarrassing 
to our agency if that agency is providing the protection. That 
struck me as a little bit of the problem that we had before 
between the CIA and the FBI, between, you know, two agencies 
that were more focused perhaps on the rivalry than they were on 
providing the security. And we are full circle now, based on 
the reading, literal reading of those memos. Here you had the 
requests.
    So that is my question. They didn't come to the conclusion 
that we should increase security, but what about the question 
of having security actually withdrawn August 15 in terms of the 
security site team provided by the Department of Defense?
    Secretary Clinton. Again, I am glad you raised that. The 
ARB looked into this, as it looked into everything. It does not 
even discuss the SST or recommend that our personnel on the 
ground should have asked for its continued deployment. And I 
think that is in part because the SST was based in Tripoli.
    Chairman Royce. Right.
    Secretary Clinton. It hardly ever, less than 2 percent of 
the entire time it was in Libya, did it even go to Benghazi. 
Its responsibilities, which were about the siting of and 
security of the Embassy, were focused on Tripoli. And it was 
not an open-ended arrangement, as it has been understood. It 
was intended as an interim measure. And the experts who were 
there played vital roles. They were communications specialists, 
airfield specialists, trained medics. They helped to stand up 
our Embassy in Tripoli when we reopened it. And I think it is 
important that they were very helpful with the Embassy. But at 
the end of the day, they really were not focused on, nor did 
they pay much attention to, Benghazi. And I think since their 
primary mission was at the Embassy, the Embassy did acquire a 
lot of assets. And that was the decision that they should not 
be extended for a third time.
    Chairman Royce. Madam Secretary, thank you.
    We are going to go Mr. Engel from New York.
    Mr. Engel. Thank you very much, Mr. Chairman.
    Madam Secretary, you and the State Department have 
rightfully taken responsibility for what happened, convening 
the ARB and implementing its recommendations. But as I said in 
my opening statement, we need to be clear-eyed that there is 
blame to share right here in Congress. Over the past 2 years 
alone, the administration's requests for diplomatic security 
funding has been slashed by more than $0.5 billion in Congress. 
And the current appropriations bill for fiscal 2013 continues 
this negative trend by slashing funding for worldwide security 
protection, Embassy security, construction and maintenance by 
more than $260 million.
    So I would like to ask you, Madam Secretary, do you think 
that Congress has provided adequate resources for diplomatic 
security in recent years? Can you talk about security 
priorities you have not been able to complete due to an 
inadequate budget? And what advice would you give the committee 
as it considers funding to protect our diplomats? And I want to 
also ask what would happen to the security of our diplomats and 
our diplomatic facilities if there is a sequester, or worse, a 
government shut down? Has the State Department begun planning 
for the dangers of Congress not agreeing to a budget?
    Secretary Clinton. Well, Congressman Engel, this is a 
bipartisan problem. Since 2007, the Department has consistently 
requested greater funding for Embassy construction and 
diplomatic security. But with the exception of 2010, the 
Congress has consistently enacted less than requested.
    Most notably, in 2012, the department received $340 million 
less than requested, close to 10 percent less. Now, over the 
last 2 years cuts to the Embassy construction, security and 
maintenance budget was almost 10 percent of that as well. Now, 
the ARB, and I would refer to them, because, you know, they had 
an independent view of this, has recommended an increase in 
facilities funding to $2.2 billion per year to restore the 
construction levels that were called for in the 1998 ARB 
report.
    But I think it is also fair to make the point the ARB made. 
Consistent shortfalls have required the government to try to 
prioritize. And the department has attempted to do that. But I 
do think that there became a culture of reaction, you know, as 
the ARB report says, husbanding resources, and trying to figure 
out how to do as much with as little as possible. And so 
although our prioritization was certainly imperfect, the funds 
provided by Congress were inadequate. So somehow we have to 
work on both ends of that equation. Now, what can you do?
    Well, first of all, we came up with a request to the 
legislative and budget staffs for transfer authority language, 
namely taking money we already had in this budget and letting 
us move it quickly to do what the ARB told us to do. More 
Marine security guards, more Diplomatic Security guards, more 
construction and upgrades. We were able to get that included in 
the Senate version of the Sandy supplemental, which passed on 
December 28, but we were unable to get the language included in 
the House version. This is not new money. So, first and 
foremost, I would greatly appreciate this committee weighing 
in, working with your counterpart in the Senate, to give us 
this transfer authority. Otherwise, we are going to be behind 
the curve again.
    Secondly, I think it is very important to change the laws 
about best value contracting versus lowest price technically 
qualified. By statute, the State Department local guard 
contracts in dangerous places like Libya, and everywhere else, 
except Iraq and Afghanistan, must be awarded using a lowest 
price technically acceptable selection process. We have 
requested a change in the legislation that would allow us to 
use some discretion to try to deal with the varieties and 
vagaries of these local guard forces. We currently have it, as 
I said, in Afghanistan, Iraq, and Pakistan. But it is going to 
expire. So that is something else that I would respectfully ask 
this committee to look into.
    And finally, the point that the chairman made and that you 
echoed, Congressman, an authorization. You know, working on an 
authorization. I was on the Armed Services Committee in the 
Senate. We did an authorization every year no matter what was 
going on in the world. It was a great organizing tool. It made 
sure that our defense needs were going to be met. I believe 
that in the world in which we are living, our diplomacy and 
development needs are very important. But we don't have the 
same focus. And so working with the Senate Foreign Relations 
Committee on an authorization where you can look at everything 
and you can have subcommittees really delving into all of these 
different issues, coming up with an authorization, I think 
would be a great step forward.
    Mr. Engel. Thank you.
    Thank you, Madam Secretary.
    Chairman Royce. Ileana Ros-Lehtinen from New York--from 
Florida.
    They retire from New York to Florida. From Florida.
    Ms. Ros-Lehtinen. We will take them either way. New Jersey, 
New York, come on down. Madam Secretary----
    Secretary Clinton. There are a lot of New Yorkers already 
down there, I think, aren't there?
    Ms. Ros-Lehtinen. But you can only vote once. We are very 
picky about that.
    Madam Secretary, thank you for the positive working 
relationship that we have had during your tenure at the State 
Department. I request that I get written responses for the 
questions that I am going to ask.
    First, why were you not interviewed for the review board by 
the review board investigators? How can this review be 
considered thorough when the person at the top, the Secretary 
of State, was not part of the investigation? That is what was 
said in our open hearing when it was confirmed that you were 
never questioned for this report, and I think that is 
outrageous.
    Also, the State Department was clearly allowing the false 
narrative that Department officials were being held accountable 
for what went wrong in Benghazi, for ignoring the threat, and 
it was perceived as fact. Look at these headlines: The New York 
Times, ``Four are out at State Department after scathing report 
on Benghazi attack,'' not true. ``Heads roll at the State 
Department,'' not true. Yet State did nothing to correct the 
record. Here we are 130 days after the terrorist attack, why 
did you not take steps publicly to correct this false 
narrative, even up to and including today? Even when your 
deputies, Burns and Nides, testified before us, they both said 
that steps were being taken to discipline those State 
Department officials, when in fact no significant action had or 
has occurred. There has just been a shuffling of the deck 
chairs.
    Do you find it acceptable that the State officials 
responsible for this lack of leadership and mismanagement, and 
for ignoring security requests during the Benghazi attack and 
before, remain employed within the State Department?
    Also, the accountability report cites several systemic 
failures at the department that cannot be overlooked or 
ignored. Given that State was aware of the dangerously 
declining security situation in Benghazi--as pointed out by our 
chairman--the assassination attempt on the British Ambassador, 
and other attacks on Western interests, why did State not 
immediately revamp our security protocols prior to the 
September 11 attacks? Did State fail to act preemptively 
because it ignored the threat, or did it fail to act because it 
was unable to recognize this growing pattern of violence? 
Either way, State did fail to act.
    These failures highlighted by the ARB report serve as a 
blueprint for terrorists on where our weaknesses lie, where we 
are vulnerable. So what actions have been taken to ensure that 
when another Embassy, another consulate sounds the alarm on 
security threats, as it happened in Benghazi, that those 
requests are not yet again ignored? As we examine the 
willingness and capacity of host countries in the region, we 
must condition aid to countries with these high-threat posts 
based on their cooperation with the United States. I hope that 
we do that.
    Further, regarding the State's request for more money, it 
is worth pointing out that some State Department officials have 
stated that budget constraints are not to blame for the loss of 
lives in Benghazi. However, the State Department is notorious 
for wasteful spending and continues to have misplaced funding 
priorities. Between the State Department, Treasury, and USAID, 
the Fiscal Year 2012 request for global climate change 
initiative is over $1.3 billion. Now, what do we think or what 
do you think is a higher priority and a better use of 
taxpayers' money, national security or global climate change? 
This money could have been used for Embassy construction, for 
hiring more diplomacy security agents, for providing our posts 
and personnel overseas with adequate equipment and training.
    There is more that I can't get to, but certainly I would 
appreciate your written answers, including the 64 specific 
action items that you will be taking on the task force 
recommendation. Also, we look forward to getting a detailed 
report here in Congress on explaining their justification, 
their itemized funding layout, et cetera.
    So thank you, Madam Secretary, for the time.
    Secretary Clinton. Congressman, obviously, we will answer 
all of your questions. Let me just comment on two of them even 
though my time has run out. First, I was not asked to speak 
with the Accountability Review Board during their 
investigation. The specific issues they were looking at 
regarding the attack on Benghazi were handled by security 
professionals in the department. And that is where the ARB 
focused. Obviously, if they had thought that I was relevant or 
had information that would have helped the investigation, I 
would have gladly discussed that with them at their request.
    Secondly, on the personnel, this is another area where I 
need your help. First, all four individuals have been removed 
from their jobs. Second, they have been placed on 
administrative leave. Thirdly, Ambassador Pickering and Admiral 
Mullen specifically highlighted the reason why this has been so 
complicated. Under Federal statute and regulations, 
unsatisfactory leadership is not grounds for finding a breach 
of duty. And the ARB did not find that these four individuals 
breached their duty. So, fourthly, I have submitted legislation 
to this committee and to the Senate committee to fix this 
problem so future ARBs will not face this situation, because I 
agree with you, there ought to be more leeway given to the 
ARBs. But under current law, they were limited.
    Chairman Royce. Madam Secretary, we will be working to fix 
that problem.
    Mr. Faleomavaega from American Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and our ranking 
member for calling this important hearing.
    Madam Secretary, thank you for your most eloquent 
statement. Your service to our Nation has been exemplary and 
outstanding. And any suggestion otherwise during today's 
hearing I would consider unfair and unwarranted.
    We meet today under difficult circumstances. I am sure that 
when you, as Secretary of State, stood at Andrews Air Force 
Base for the transfer of the remains of Ambassador Christopher 
Stevens, Mr. Sean Smith, Mr. Tyrone Woods, and Mr. Glen 
Doherty, you must have had tremendous, or felt tremendous pain 
and suffering. As we express in our Samoan proverb, ``Ua tagi 
le fatu ma le eleele,'' meaning, ``the stones and the Earth 
wept.''
    Madam Secretary, please know that we were not--you were not 
alone. We wept with you and with the families of our fallen 
heroes. It is true that the Benghazi attack is the first time 
since 1979 that an American Ambassador has been killed in the 
line of duty. But it is also true that the world has changed 
significantly since 1979, and consequently the Department of 
State is increasingly operating in high-threat locations 
throughout the world. This is why the Accountability Review 
Board rightly observed that Congress needs to make a serious 
and sustained commitment to supporting State Department needs.
    But in the Fiscal Year 2013 fiscal year budget, the House 
cut the administration's request by about $200 million. 
However, having been provided $2.6 billion of security funding, 
I wonder if the Congress had done its part and fulfilled its 
responsibility in providing the State Department with the 
necessary resources and funding to meet its needs, especially 
to provide security for our Embassies and consulates throughout 
the world. I agree with the ARB's recommendations that we 
should restore the capital security cost-sharing program, which 
pulls money from different agencies in order to accelerate 
construction of new Embassies and consulates.
    Madam Secretary, in honor of the lives of Ambassador 
Christopher Stevens, Mr. Sean Smith, Mr. Tyrone Woods, and Mr. 
Glen Doherty, we need answers so that we can prevent this kind 
of tragedy from happening again. It is no good for any of us to 
use this tragedy for political gain. This was a terrorist 
attack first and foremost.
    And we must not lose sight of this brutal fact. Instead, we 
must hold together in our commitment to defeat those who would 
do us harm. So, Madam Secretary, I commend you for convening 
the ARB in accordance with the Omnibus Diplomatic Security and 
Anti-Terrorism Act of 1986, and for accepting all 29 of the 
recommendations of the ARB commission. For the past 20 years, 
you have served our Nation well. You have done all you could do 
to deliver freedom safely to future generations. I salute you, 
and I look ahead to 2016, wishing you much success and 
extending to you my highest regards.
    I do have one question, or a couple if I have the time. 
Madam Secretary, I note with interest one of your quotes, or a 
statement here that this is why Ambassador Chris Stevens went 
to Benghazi. I want to get the sense that the commitment of our 
Foreign Service Officers throughout the world is second to 
none, even at the risk of their lives. And I wish that my 
colleagues would understand, yes, we have logistical problems, 
yes, we have funding, but the fact that these people willingly 
did this, not only because of his love for the leaders and the 
people of Libya, but because he was so proud to represent this 
great Nation of ours.
    And I would like to ask if you could elaborate just a 
little further what you meant by this, that Ambassador Stevens 
went to Benghazi in the first place, knowing the dangers, 
knowing the dangers were there, he went still; could you please 
comment on that?
    Secretary Clinton. Well, Congressman, I think it is 
absolutely the case that we have a Foreign Service that is 
composed of men and women who take on these responsibilities 
because they love our country. They go in with their eyes wide 
open. They learn languages. They immerse themselves in 
cultures. They go out to the Foreign Service Institute and hone 
their skills.
    And Chris Stevens was one of our very best. He started off 
in the Peace Corps in Morocco, was a fluent Arabic speaker, had 
served with distinction throughout the Arab world. And when I 
asked if he would be interested in going to Benghazi, where we 
had nothing when he first went, where he, you know, bunked up 
in a hotel, we didn't have any support to speak of, he was 
thrilled. And he understood immediately what it would mean.
    In the wake of this tragedy, this terrible terrorist 
attack, I think one of the most poignant events has been 
overlooked. And that is what happened after the Libyan people, 
from Benghazi to Tripoli, learned that Chris Stevens, someone 
whom they had gotten to know, whom they trusted and admired, 
had been murdered. They went out into the streets. They 
protested themselves, thousands, tens of thousands, far more 
than the dozens of highly armed, you know, invaders of our 
compound and our annex. And they made it clear that that was 
not the kind of country they were trying to build. So, in some 
ways, Chris' faith after his death was certainly validated.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Thank you, Madam Secretary.
    Chairman Royce. Mr. Smith of New Jersey.
    Mr. Smith. Thank you, Mr. Chairman.
    Welcome, Madam Secretary. You know, we all deeply mourn the 
tragic loss of four extraordinarily brave Americans, including 
our distinguished Ambassador, Christopher Stevens. But one of 
my top concerns is that we seem to be relearning the same 
lessons again and again and again.
    Madam Secretary, after the August 1998 bombings of U.S. 
Embassies in Kenya and Tanzania, Admiral Crowe sat exactly 
where you sit, that was 13 years ago, and told the subcommittee 
that I chaired at the time that, ``In our investigations of the 
bombings, the Boards were shocked how similar the lessons 
learned were to those drawn by the Inman Commission some 14 
years ago.'' In other words, in 1985. In direct response, I 
authored a bipartisan law, the Admiral James W. Nance and Meg 
Donovan Foreign Relations Authorization Act. In it, we had a 
title, the Secure Embassy Construction and Counterterrorism Act 
of 1999, to upgrade diplomatic security and residences, to 
improve threat assessments and facilities, emergency action 
plans, security threat lists, perimeter distances, setbacks, 
for example, crisis management training, Diplomatic Security 
training, rapid response procedures, storage and emergency 
equipment, like fire suppressant capabilities, and increased 
antiterrorism training in Africa. Before 1998, there were 1,000 
security specialists. Today, there are over 3,100. I agree we 
need more. But how present-day security personnel and assets 
are deployed are above all a leadership issue. And clearly, we 
have and had the Diplomatic Security assets that could have 
been deployed to Benghazi.
    When it comes to what you knew, Madam Secretary, and what 
requests were made of you and the department to beef up 
security in Benghazi, there are disturbing parallels to Kenya 
and Tanzania. Prior to the East Africa terrorist bombings, U.S. 
Ambassador to Kenya Prudence Bushnell repeatedly asked 
Secretary Madeleine Albright for more security upgrades. And 
the Ambassador's request was rejected. And the loss of life, as 
we all know, was horrific.
    There are numerous press reports that U.S. Ambassador to 
Libya Chris Stevens and his team made repeated requests for 
security assistance. So my questions are these: One, you 
defined taking responsibility for Benghazi in your testimony a 
few moments ago in terms and only in terms of during and after 
the terrorist attacks. What about before the attack on 
September 11, 2012? What did you personally and your staff 
know? When did you become aware of Ambassador Stevens' and his 
team's requests for security upgrades? What exactly did you do 
in response? You obviously were very close to him. Did he ask 
you personally at any time?
    When you said a moment ago that Ambassador Pickering's ARB 
perhaps didn't think you relevant to be interviewed, you are 
the most relevant person of all. You are the leader. You are on 
top of it all. So I would join with my colleague Ileana Ros-
Lehtinen; you should have been interviewed, and very important 
questions asked. And were you personally in any way at fault?
    Secretary Clinton. Well, first, Congressman, I am well 
aware of the work that you did after the 1998 bombings. And I 
think that work and the legislation that you championed has 
been very important in protecting our people around the world. 
We have been not only reviewing but continuing to implement the 
recommendations of all the former ARBs. And the 18 previous 
ARBs resulted in 164 recommendations. And we have been very 
clear that the overwhelming majority have been implemented. A 
handful of such recommendations were by their very nature 
requiring continuous implementation, like what kind of security 
upgrades or radio communication was necessary. And there were a 
few that were only partially implemented because of some 
separate security concerns that that would have raised.
    But there was a need for ongoing funding. You remember that 
Admiral Crowe said, we wanted $2.2 billion for building 
Embassies. We had a number of Embassies that were built in 
those early years, thanks to your legislation. Then it petered 
off. You know, we put so much time and attention into Iraq and 
Afghanistan, trying to make sure that we secured our people 
there. We sent a lot of our Diplomatic Security personnel 
there. And so we had a slowdown over a number of years in our 
ability to build new Inman facilities. And now the latest ARB 
is saying, let's get back and do this again because there is no 
substitute for it.
    Mr. Smith. I am almost out of time, Madam Secretary. When 
did you become aware of Ambassador Stevens' request, and how 
did you respond to it? And did he ever personally ask you to be 
involved?
    Secretary Clinton. No, no and----
    Mr. Smith. You didn't get----
    Secretary Clinton. No. That any of the requests, any of the 
cables having to do with security did not come to my attention.
    Chairman Royce. Mr. Sherman from California.
    Mr. Sherman. Madam Secretary, it is a shame that this is 
your last appearance before our committee. And I would have 
thought that your last appearance would have been a chance for 
us to review your outstanding record as one of our great 
Secretaries of State, whether it be leading efforts to enforce 
sanctions on Iran, your work supporting women's rights around 
the world, engaging with civil society and restoring and 
maintaining American influence in a very difficult era. I would 
have thought that your last hearing would be your chance to 
give us some advice for what to do over the next 4 years and 
beyond.
    I take seriously your very strong advice, because I happen 
to agree with it, that it is about time we pass an 
authorization bill through both Houses of Congress. But 
instead, we are here on, I guess, our third hearing to deal 
with the tragic events in Benghazi because it is a chance for 
each political party to beat up on the other. We can talk about 
how Republicans did not provide you with resources. We can talk 
about the administration inside the State Department.
    So I would hope that maybe we get you to come back again--I 
realize that would be gratis; you wouldn't even be on the 
government payroll at that time--and do the hearing that I 
would like to have, which is getting your input on the bigger 
issues of foreign policy.
    Ultimately, the security of our diplomats depends on the 
host country. This is all the discussion is about, well, there 
might have been five security people on the ground and if only 
there had been more funding, more deployment, this cable, that 
cable, maybe there would have been eight or nine security 
people on the ground, which might have led to more protection, 
might have led to more casualties.
    And here in Washington, the decision was made to provide 
well more than 16 security people to Libya, and nobody that I 
know of in Washington was involved in the issue of how many of 
those were in Benghazi, either going with the Ambassador or 
there in advance. So the decision that all 16 weren't with him 
was a decision that you can't blame either political party or 
anyone in Washington for.
    Ultimately, all we can have at our Embassies is enough to 
stave off a militant attack for a few hours. And after that, if 
the host country doesn't come to the rescue, it doesn't matter 
whether we have 3, 6, 12, 16 or 36 armed guards and Marines at 
the location.
    One aspect of protecting our diplomats in the future is 
bringing to justice the criminals who did this this time. We 
did a lot for the people of Libya. We did a lot for those who 
are now ruling Libya. How would you appraise their efforts to 
cooperate with us in the investigation? And does this Libyan 
Government have the will and the capacity to arrest the 
suspects involved? And of course, will and capacity tend to go 
with each other. I think they would have to, at minimum, strain 
their capacity to try to arrest powerful armed elements in the 
eastern part of the country, and I don't know if they have the 
will to use that capacity. So can you tell us after the attack 
and now that we are trying to bring these culprits to justice, 
what do you think of the Libyan Government?
    Secretary Clinton. Well, I think, Congressman, you drew 
exactly the right description; is it will or is it capacity, 
when obviously what you need is both? I have found the Libyan 
officials to be willing but without capacity. And part of our 
challenge is to help them build greater capacity, because now 
it is about them. It is not only about what happened to us in 
Benghazi, which every official in the Libyan Government was 
deeply upset about, but they have their own problems now. They 
are having leaders attacked and assassinated on a regular 
basis.
    So we have to do more to help them build up their security 
capacity. And again, I would ask this committee to work with 
us; there are holds on a lot of security funding that would go 
to Libya to assist them in building capacity.
    There are those I know in the Congress who say, look, Libya 
is a wealthy nation, we don't need to give them any money. 
Well, until they get up and going, it is in our great interest 
to give them the resources, like we have with other countries 
over the past 40 years.
    Chairman Royce. We go to Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    And thank you for being with us today and putting yourself 
through this.
    Secretary Clinton. Thank you.
    Mr. Rohrabacher. Let me just note that fixing 
responsibility, which we are trying to do today, and 
identifying bad policy and mistakes is the way that democracies 
fix problems. It is not all politics. It is how we do things 
here to make it better. So none of us have--should at all 
apologize for trying to get to the nitty gritty.
    Let me just note that Assistant Secretary of State Lamb 
testified here in Congress that budget considerations played 
absolutely no role in her decision--it was her decision, not 
yours, but you approved them--but her decision as to what the 
level of security would be there at Benghazi. So any suggestion 
that this is a budget issue is off base or political.
    Madam Secretary, you told the Senate this morning that you 
learned of the attack around 4 o'clock p.m. on that day and you 
were involved widely in the coordinated response, which 
included the Department of Defense and the White House, but did 
not speak to the President until later that evening. When did 
you talk to the President?
    Secretary Clinton. Two things, on the first point you made, 
Congressman, the ARB disagreed and did find that budget issues 
were at stake.
    Mr. Rohrabacher. Well, she testified under oath and----
    Secretary Clinton. Well, you know, that is why you have an 
independent group like an ARB. That is why it was created, to 
look at everything.
    Mr. Rohrabacher. Everybody has their own----
    Secretary Clinton. Right. I think it is important, though, 
and I would urge----
    Mr. Rohrabacher. What about when you saw the President, 
when did you see the President?
    Secretary Clinton. I talked to the President at the end of 
the day, but I had been in constant communication with the 
National Security Advisor. I had been on secure video 
conferences with high level officials in the White House and 
the Defense Department.
    Mr. Rohrabacher. Secretary Lamb, the lady we are talking 
about, did--testified that she had actually witnessed this in 
real time, the attack, in real time on a monitor. At any time, 
did you see the initial attack on a monitor or the President?
    Secretary Clinton. Congressman, there was no monitor. There 
was no real time. We got the surveillance videos some weeks 
later. That was the first time we saw any video of the attack. 
I think there was a misunderstanding. I think that, perhaps, I 
am just trying to clarify this--I may be going beyond my brief 
here, but I think perhaps what she meant was----
    Mr. Rohrabacher. Was there audio?
    Secretary Clinton. She was on an open--she was talking to 
DS people, who were trying to understand what was going on.
    Mr. Rohrabacher. Right. Well, I would have to say that 
Admiral Mullen in briefing us suggested that they had seen some 
kind of video and that, within a few moments, it was very clear 
that this was a very coordinated terrorist attack and not some 
demonstration that had gone awry.
    Secretary Clinton. Well, I think surveillance video, which 
some of you may have seen in a classified setting, does 
demonstrate what happened that night.
    Mr. Rohrabacher. As you were dealing with the crisis as it 
went on, did you think or act on the basis that this was a film 
protest gone out of control, and when you briefed the 
President, did you tell him that? Or did you tell him, which 
Admiral Mullen suggests you knew by then, that this was a well 
planned and executed terrorist attack? Which was the President 
told?
    Secretary Clinton. Well, first of all, I said the very next 
morning that it was an attack by heavily armed militants. The 
President said that morning it was an act of terror. At the 
same time, however, I was dealing with protests against our 
facilities that were clearly connected to that video. So we 
were managing a number of such events.
    Mr. Rohrabacher. Let's say that you noted, and it can be--
people do that so you can say that you said it, but the 
emphasis we all remember what the emphasis was, over and over 
and over again, it was repeated that we had enraged the Islamic 
terrorists, which by the way, what--when you say we enraged the 
Islamic terrorists, that means we are at fault. They are not at 
fault. And then to look and see that the only people I know are 
in jail right now is the filmmaker. Isn't this a little 
disconcerting?
    Secretary Clinton. Well, first, Congressman, I want to be 
clear that, of course, it was the terrorist attack. The very 
next day I called it an attack by heavily armed militants on 
our compound. I think there are still, however, questions about 
exactly what caused it, who the attackers were. The ARB, after 
months of research, said the picture is still very complicated.
    Mr. Rohrabacher. Well----
    Secretary Clinton. I think it is worth members looking a 
both the both unclassified and classified ARB with that in 
mind.
    Mr. Rohrabacher. Thank you.
    Chairman Royce. Mr. Meeks of New York.
    Mr. Meeks. I thank the chair.
    Madam Secretary, let me first thank you. First of all, I 
want to thank you for an extraordinary daughter who came to the 
Rockaways after Sandy, just helping people, unannounced, 
without fanfare, just getting down and helping people because 
they needed help after that terrible storm. And so just 
extraordinary public service.
    And then I want to also say, Madam Secretary, that you have 
been Secretary of State at an extraordinary time in the history 
of the United States of America and the world, and you have 
managed the challenge in an equally extraordinary manner.
    When you took the job, America had a tarnished image 
abroad. You have revised our brand, traveled over 1 million 
miles to the furthest reaches of the world, to the most 
challenging areas, and touched the lives of the most 
vulnerable. With your leadership of initiatives like the QDDR, 
you have deepened our confidence that foreign aid can be 
responsibly spent. On behalf of a grateful Nation and 
definitely the people of the Fifth Congressional District, I 
want to thank you for a job well done.
    The attacks on our mission in Benghazi were a painful 
reminder to all of us that our diplomats of course are in 
harm's way. And they are in some of the same unstable and even 
hostile environments as our military. Yet they don't have the 
same means of protecting themselves. And sadly, we go back, and 
we have talked, and I know at this committee I heard Admiral 
Mullen and Ambassador Pickering saying that money was and the 
budget is very important and makes a difference. Yet, sadly, 
this House has failed to do its part in addressing the 
challenges they face, even after the tragedy of the Benghazi 
attacks.
    You, however have been responsible and accepted the 
recommendations of the ARB and put measures in place 
immediately after the September attacks that demonstrate that 
you are serious about changing the status quo. But, of course, 
again, it is a two-way street. Congress failed to act in a 
meaningful way. And I believe it is a shame on the leadership 
for its failure to give the State Department the authority to 
transfer already appropriated funds, not new money, already 
money that you have toward bolstering security for our 
diplomats to give you that discretion. And shame on the House 
for its failing to adequately fund the administration's request 
for diplomatic security funding.
    Now, I hope that this Congress will act swiftly to fix 
these critical funding matters.
    It is also my hope, as you have said, that we finally have 
a State authorization bill that the President can sign into 
law.
    But let me ask you this question, at the time of the 
Benghazi attacks, you indicated, there were risings going on in 
Egypt and in Yemen and in Tunisia. It seems as though a lot, 
because no one could have imagined and I am sure you did not 
when you initially took office, that we would have the Arab 
Spring and the nature of what was going on in these various 
countries would have happened.
    I want to ask you a question, somewhat what Mr. Sherman was 
asking, just to get your thoughts, on what we might do as 
Members of Congress and how we might move forward with the 
nations of the Arab Spring so that maybe that is a way we can 
prevent these kinds of things from happening in the future.
    Secretary Clinton. Well, it is an excellent question, 
Congressman, and deserves a very thoughtful answer, longer than 
the time I have.
    But let me just make three quick points: First, we cannot 
retreat from, give up on, turn our backs on these new Arab 
Spring revolutionary countries and new regimes. They are very 
new. Most of them have leaders that have never run anything. 
They have come from backgrounds where they are suspicious of 
security, because security was a dirty word; it through them in 
jail. It harassed themselves and their families. So we have to 
do some work, and that work requires that we stay engaged.
    Secondly, we have to do a much better job in helping 
rebuild security apparatus that can be used. Quick example, we 
had a terrible assault on our Embassy in Tunis, and I called 
the President of Tunisia; I said, you have got to send 
reinforcements right now. Our Embassy is going to be overrun. 
He sent it. It stopped. The government really has been 
responsive, understanding that, you know, these terrorists, 
these extremists, don't just threaten us in Western countries. 
They threaten the stability and the future of these 
governments. So we have to help them the way we helped Colombia 
years ago.
    And finally, we need do a better job conveying a counter 
narrative to the extremist jihadist narrative. You know, I have 
said this to this committee before, a lot of new members on it, 
we have abdicated the broadcasting arena. Yes, we have private 
stations, CNN, FOX, NBC, all of that. They are out there. They 
convey information. But we are not doing what we did during the 
Cold War, our Broadcasting Board of Governors is practically 
defunct in terms of its capacity to be able to tell a message 
around the world. So we are abdicating the ideological arena, 
and we need to get back into it.
    We have the best values. We have the best narrative. Most 
people in the world just want to have a good decent life that 
is supported by a good decent job and raise their families. And 
we are letting the jihadist narrative fill a void. We need to 
get in there and compete, and we can do it successfully.
    Chairman Royce. Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    Madam Secretary, first, let me thank you for your service, 
and I wish you the best in your future endeavors, mostly.
    I have a couple of questions, but I do want to take a 
moment or two to say a couple of words about our late 
Ambassador Chris Stevens. Many members and staff on our 
committee have had the opportunity to know and to work with 
him, even before he was named our U.S. Ambassador to Libya. I 
think all would agree that he was one of our most able 
diplomats. I had the opportunity to meet with him in Tripoli a 
little less than a month before he and three other outstanding 
Americans were murdered in Benghazi. His enthusiasm for the job 
was really something to behold. He was excited about the 
opportunity to help a nation newly freed from decades of brutal 
dictatorship.
    My first night in country, I had the opportunity to join 
the Ambassador for an IFTAR dinner with a number of newly 
elected Libyan parliamentarians. They were optimistic about 
building a democracy, creating a vibrant economy, and restoring 
fundamental human rights for the Libyan people. He was as 
enthusiastic as they were about the prospects. There is no 
question that he will be missed by all who knew him and worked 
with him.
    One of the things that really troubles me, Madam Secretary, 
is the hoops that we on this committee have had to jump through 
to get to the facts surrounding the deaths of these public 
servants. The State Department has delayed and delayed coming 
forth with information. When this committee was finally 
presented with relevant data, it amounted often times to what 
might be called a document dump--hundreds of pages of paper in 
wide disarray, in no particular order, either in terms of 
relevance or in chronology, often duplicates in different 
binders, making it very difficult to locate documents that were 
of any help.
    Our public servants in Libya were murdered on September 11. 
It is now January 23, more than 4 months later. It is 
unacceptable that the State Department has made it so difficult 
for Congress to exercise its oversight responsibility.
    Now a couple of questions. Within a couple of months of the 
attack, during the July-August period, Ambassador Stevens 
expressed concern about militia activity, particularly in 
Benghazi, and the need for additional security assistance. We 
have seen the cables where security officers on the ground 
expressed considerable frustration at the difficulty in getting 
the personnel they believed were needed to protect American 
diplomats and property. And we now know that management of 
security personal, especially the assignment of State 
Department agents on very short-term duty, virtually 
guaranteeing very limited institutional knowledge was grossly 
inadequate. Why was the department hierarchy so obstinate, and 
why would the department deny a personal plea from Ambassador 
Stevens? Given his expertise on Libyan affairs, why did the 
department and senior leadership not take into consideration 
the approaching September 11 anniversary, particularly in light 
of direct requests from our mission in Libya?
    And finally, Madam Secretary, we heard numerous times over 
the last several months that more funding is needed for 
diplomatic security, including in your testimony before the 
Senate Foreign Relations Committee and to some extent this 
afternoon. I don't believe there is anybody in this room who 
doesn't want to protect our diplomats stationed abroad, often 
in very dangerous regions.
    Since 2000, Congress has provided funding in the 
neighborhood of $10 billion for Embassy security construction 
and maintenance. We will no doubt continue to provide 
significant funding in the future. Given that our Nation now 
faces a mountain of debt, sadly I might add, given short 
shrift, I have to say, by the President in his Inaugural 
address, of course means that we cannot fund every single 
program that every Federal agency requests. So when we increase 
funding in one area, we have to consider cuts in others, at 
least that is the way it should work. Is the State Department 
currently conducting any internal reviews, for example, to 
determine what offsets in current program funding might be 
considered?
    Finally, I know that some have been pedaling this story 
that it's Congress' fault for not providing sufficient funding 
for security. I would just note that Robert Baldre, your chief 
financial officer for diplomatic security stated, and I quote, 
``I do not feel that we have ever been at a point where we have 
sacrificed security due to lack of funding.''
    I know that I have used my 5 minutes, so I would appreciate 
your remarks.
    Chairman Royce. The gentleman from Ohio has used his 5 
minutes, and if we want to get through the members, we are 
going to have to hold to those 5 minutes.
    So I will just ask for a response in writing, and we will 
go down to Mr. Deutch from Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    We won't have to wait long, because those are some good 
questions that I will take up in a moment.
    Secretary Clinton, first, I would like to thank you for the 
truly remarkable job that you have done as Secretary of State. 
You have represented the interests of this Nation 
magnificently. And I, for one, hope that after a bit of rest, 
you will consider a return to public service, and should that 
return bring to you Florida, I would look forward to welcoming 
you there.
    I would be remiss if I did not take this opportunity to 
once again thank you for your efforts on behalf of my 
constituent Robert Levinson, who went missing in Iran in 2007, 
now 2,147 days ago. And I ask that the department continue to 
do everything that it can to return Robert to his family.
    I also want to thank you for the ways that you have handled 
the tragic events in Benghazi. Your personal commitment to 
ensuring that those Americans who serve American interests 
overseas, often at great risk to themselves, is a testament to 
the commitment that you have shown throughout your tenure at 
State to strengthen our diplomatic efforts around the world.
    And I would like to return to Mr. Chabot's question. There 
is an awful a lot of debate here on the Hill about how we spend 
our dollars. We all recognize that we have budgetary concerns; 
we also recognize that we have an obligation to provide 
security and to protect American personnel abroad. As we have 
ended our military operations in Iraq, as we wind down in 
Afghanistan, what kind of--I would like to ask, what kind of 
strain will the presence of less military personnel in the 
region put on diplomatic security? Let's start with that.
    Secretary Clinton. That is a very important question that 
we are really going to have to grapple with together I would 
hope. We saw, for example, that when our troops withdrew from 
Iraq, it dramatically altered what our civilians were capable 
of being able to do, because there had been, over the course of 
the war in Iraq, a very good working relationship between DoD, 
State and USAID. We are going to face the same kind of 
questions in Afghanistan as our troops draw down from 
Afghanistan, and in a lot of these places, we don't have 
military resources. The Department of Defense was a very good 
partner to us in responding to Benghazi, but their assets were 
too far away to make much difference in any timely fashion.
    AFRICOM was stood up 10 years ago. I think that is going to 
look quite prescient because we are going to need to figure out 
how to work more effectively together between our civilian and 
military assets in Africa, and I think that would be a worthy 
subject of this committee, perhaps working with the Armed 
Services Committee, because it is often difficult.
    In my 4 years, we tried to work out more cooperative 
relationship, more funding streams between State and DoD, in 
order to be able to maximize the cooperation between us.
    Mr. Deutch. When you talk about the need to prioritize, 
because of shortfalls, more Marine security guards, talk about 
construction budgets and upgrades, what does that mean? What 
are the decisions that have to be made, and how do they 
actually impact our diplomatic personnel?
    Secretary Clinton. Well, first and foremost, we have to do 
the right job prioritizing, based on the resources we do have. 
And I would be the first to say, it is not all about money, but 
it is also not without budgetary consequences. And so we have 
to figure out what is the right balance.
    Secondly, immediately after this happened, I spoke with 
Secretary Panetta, Chairman Dempsey and asked the Defense 
Department to work with us in putting together Interagency 
Security Assessment Teams to go out and look at our high-threat 
posts because our military brings a different perspective, and 
that was a very important process, which we are going to 
continue.
    We are also looking to see how we can better cooperate on 
the security aid that we give to other countries. It has got to 
be a combination of both military assets and expertise, but 
also development, rule of law, democracy building. It can't be 
one or the other. They have to be married together.
    Mr. Deutch. And if you could, in the few seconds we have 
left, Madam Secretary, could you speak more broadly about the 
important role that that would play? In this budget debate that 
is going to take place, why is it so important for us to 
continue to fund this?
    Secretary Clinton. Well, let me just give you an example, 
Colombia. Colombia, 15, 20 years ago, was in a very difficult 
state. It had an insurgency. It had a drug cartel that was 
basically controlling territory. The United States stepped in, 
worked with the Colombians, and the progress, I think, is 
evident for all to see. There was a front page article in the 
travel section about go to Medellin. That is what America can 
do. We don't do it ourselves. We partner with willing 
governments to help them acquire the capacity to protect their 
own citizens.
    Chairman Royce. We will go to Mr. Joe Wilson of South 
Carolina.
    Mr. Wilson of South Carolina. Thank you, Mr. Chairman.
    And Madam Secretary, thank you for being here today, and I 
particularly appreciate your recognition of AFRICOM, and Plan 
Colombia. Indeed, these have been extraordinary success stories 
promoting peace throughout the world.
    The American people will always appreciate as American 
heroes, Chris Stevens, Sean Smith, Tyrone Woods and Glen 
Doherty.
    As we begin, I do want to point out, though, for the 
record, I believe that Congressman Rohrabacher is correct; 
there was an e-mail from the Chief Financial Officer for 
Diplomatic Security following the Benghazi attack, 
specifically, ``Although diplomatic security has been fiscally 
prudent, I do not feel that we have ever been at a point where 
we sacrificed security due to a lack of funding.'' That 
actually is an attribute to you, and I have faith in the chief 
financial officer that it is a correct statement.
    As we begin, it has been reported that since you managed 
the response to Benghazi attack, why weren't you the person to 
appear on the Sunday shows immediately following the attack? 
Ambassador Susan Rice said that you declined. Was that correct?
    Secretary Clinton. Well, I have to confess here in public, 
going on the Sunday shows is not my favorite thing to do. There 
are other things that I would prefer to do on Sunday mornings. 
And, you know, I haven't been on a Sunday show in way over 
year. So it just isn't something that I normally jump to do. 
And I did feel strongly that we had a lot that we had to 
manage, that I had to respond to, and I thought that is what 
should be my priority.
    Mr. Wilson of South Carolina. And I believe that part of 
the priority is telling correct information. And you could have 
done that, and I think it was very unfortunate--the multiple 
appearances by Ambassador Rice with information that has been 
discovered not to be correct.
    In the November 21, 2012, edition of the Charleston Post 
and Courier a letter was published by William J. Boudreau, a 
retired Foreign Service Officer of Seabrook Island. He wrote,

        ``Within the U.S. State Department, there is an office 
        known as Op Center. It is located in the Office of the 
        Secretary of State. It is staffed around the clock, 24/
        7, by seasoned Foreign Service Officers. Its function 
        is to be sensitive to any threat to American interests 
        wherever they might arise. The Op Center has direct 
        secure communication lines to the White House Situation 
        Room, the National Military Command Center at the 
        Pentagon and, the CIA's Op Center. Having worked as a 
        watch officer at the Op Center, I know that any 
        information that indicates a threat to the safety of 
        American citizens overseas is passed to other agencies 
        mentioned above. If it is of significant message 
        concerning American interest is received, it is the 
        watch officer's job to ensure that these other agencies 
        are informed.''

    He goes on, there are many questions that need to be 
answered, and I would like to present these questions on his 
behalf. First and foremost, what was going on at the Op Center 
at the State Department in Washington while our consulate was 
under attack for 7 hours?
    Secretary Clinton. Well, we can certainly give you greater 
detail, but the Op Center is, as you have described, the place 
where communications go in and out. They were placing calls. 
They were receiving calls. They were deeply engaged in trying 
to help us. They don't reach out on their own, but to help us 
acquire information so that we could respond in real time.
    Mr. Wilson of South Carolina. And 7 hours, I mean, goodness 
gracious, there should have been a response. Why the delay in 
labeling the attack as terrorism when it was immediately known 
that it was.
    Secretary Clinton. Well, you know, again, I would say, 
Congressman, that we described the attack, I described the 
attack the next morning; the President called it an act of 
terror. There with a, as you will find in reading both the 
unclassified and classified version of the ARB, there was a lot 
of questions about who was behind it, what motivated it, and 
the ARB says those questions are still not fully answered 
today.
    Mr. Wilson of South Carolina. And he continues, why weren't 
Marine guards posted in Benghazi in the first place?
    Secretary Clinton. Because historically Marine guards are 
at posts where there is classified information. Marine guards 
have not historically had the responsibility for protecting 
personnel. Their job is to protect and, if necessary, destroy 
classified material. At our compound, there was no classified 
material.
    Mr. Wilson of South Carolina. He continues in line with 
everybody else pointing out that there were requests to enhance 
security that were denied. We weren't able to reach all the 
questions, but I appreciate your responding to Mr. Boudreau's 
questions. I will submit them for the record to your office for 
a written response.
    Secretary Clinton. Thank you, Congressman.
    Chairman Royce. Karen Bass of California.
    Ms. Bass. Thank you very much.
    Thank you, Chairman Royce and Ranking Member Engel, for 
convening this hearing.
    Secretary Clinton, I want to take the time to thank you for 
your willingness to come before this committee for the final 
time. And I want to offer my sincere and deep gratitude for 
your remarkable service to our Nation. I am also very glad to 
know that you are feeling much better.
    For the past 4 years and well before, you have put country 
first, and for that, our Nation is indebted to you. With 
confidence and careful consideration, you have shown 
extraordinary leadership on countless issues, ensuring that 
diplomacy is an essential part of our country's foreign policy. 
And your tireless effort to elevate women and girls' rights is 
without comparison. You have strengthened our State Department, 
made it better today than when you arrived.
    As the ranking member on the Africa Subcommittee, I am 
especially appreciative of the attention you have given to the 
54 nations of Africa. While Africa may lose one of its most 
steadfast and dedicated champions at the State Department, I 
trust Africa will not be far from your thoughts and will remain 
a top priority in your future work.
    I also want to associate my comments with Congressman 
Sherman, who said that it is unfortunate that it is the last 
time we will hear from you, so I want to focus my time on 
moving us forward and asking your advice. You made reference in 
your testimony about best-value contracts and you mentioned, I 
believe, several nations where best-value contracts are not 
used. And in thinking about Africa and the instability in a 
number of nations in Northern Africa, Central Africa, Mali, 
what we are dealing with now, I want to know whether or not 
those nations are subject to those types of contracts and 
whether or not exemptions or waivers should be made, what 
should we do?
    Secretary Clinton. Congresswoman, thank you very much for 
your emphasis on Africa, which I think is going to be 
increasingly important. There are only three nations where the 
State Department has an exemption by Congress for using 
different contracting rules in order to get the best value for 
our country. Those are Iraq, Afghanistan, and Pakistan, so 
every other country in the world we are under the kind of 
contracting rules that I think do interfere with our capacity 
to get the best deal, particularly when it comes to security, 
that we should in these countries where the threats, 
unfortunately, are going to always be with us.
    Ms. Bass. Should we look to extend that to Mali, to the 
DRC, to Somalia?
    Secretary Clinton. Well, I would certainly recommend--there 
was an article in I think one of the newspapers today that went 
into some detail--basically, here is how it started, for more 
than two decades, Federal laws required the State Department to 
select the cheapest rather than the best contractor to provide 
local guard services at its Embassies abroad. And you know, 
there is that old saying, you get what you pay for. And this 
lowest-price provision started off in 1990, but it has just 
stayed with us, and I would respectfully request that this 
committee take a hard look at it.
    You can't do a total lifting of it for everybody, at least 
look at the high-threat posts, where, obviously, we did it for 
Iraq, Afghanistan and Pakistan, and the countries you are 
naming are countries that I think would fall into that 
category.
    Ms. Bass. Well, thank you very much.
    Among the various Islamic extremist groups operating in 
Africa today AQIM, al-Shabaab, Boko Haram, to name a few, in 
your view, which pose the greatest threats, direct threat to 
the United States? And then, given the limited capacity and, in 
some cases, the limited political will of the countries in 
which these groups operate, are U.S. military, intelligence and 
security assistance resources devoted to these threats 
adequately or appropriately balanced? And what recommendations 
would you have for us?
    Secretary Clinton. Well, I think if you are focusing just 
on North Africa, al-Qaeda is a brand name, as much as an 
organization, people wake up, they form these jihadist groups, 
they then claim to be associated with, somehow affiliated with 
al-Qaeda in order to gain some credibility with local people, 
as well as beyond.
    I think that we have to take seriously all of these 
terrorist groups, whatever they call themselves. Now, at the 
moment, they don't necessarily have either the interest or the 
ability to attack our homeland, but we have a lot of 
facilities. We have lot of assets in North Africa. We just saw 
Americans killed and held hostage at a gas facility because we 
do business all over that continent. So I think we have to take 
a hard look at all of them and constantly be upping our 
military and intelligence and diplomatic assets to deal with 
them.
    Ms. Bass. Thank you very much.
    Chairman Royce. I would like to just take a moment and 
explain to the gentlelady, we passed last year the best-value 
contract language that you are speaking of in the House 
appropriations measure. We are going to try to get our 
colleagues in the Senate to take that measure up.
    We go down to Mr. McCaul from Texas.
    Mr. McCaul. Thank you, Mr. Chairman.
    Welcome, Madam Secretary. Thank you for your service.
    Similar to September 11, 2001, there were warning signs 
prior to Benghazi September 11. There was an April 6, 2012, 
crude IED thrown over the wall of the U.S. Facility in 
Benghazi. On May 22, 2012, Red Cross building in Benghazi hit 
by two RPGs. The brigades of the imprisoned Blind Sheikh took 
responsibility for that attack. On June 6, 2012, U.S. consulate 
in Benghazi was targeted by an IED, an attack that blew a hole 
in the perimeter wall. Again, the Blind Sheikh brigade took 
credit. And then, on August 16, we had this cable that has been 
widely reported, a classified State Department cable warning 
that the Benghazi consulate could not withstand a coordinated 
attack. And the regional security officer believed our 
consulate could not be protected at an emergency meeting less 
than 1 month before the attack on 9/11. A contingency plan was 
supposedly drafted to move the operations to the CIA annex 
about a mile away from the compound. This cable was presumed to 
have been shared by senior staff. It was sent to your office. 
It was sent to the NSC. And even on September 11, the day that 
Ambassador Stevens was killed, he personally warned about 
``growing problems with security in Benghazi and growing 
frustration with security forces and the Libyan police.'' Were 
you aware of this cable, this August 16 cable?
    Secretary Clinton. Congressman, that cable did not come to 
my attention. I have made it very clear that the security 
cables did not come to my attention or above the assistant 
Secretary level where the ARB placed responsibility; whereas I 
think Ambassador Pickering said, the rubber hit the road. Now I 
think----
    Mr. McCaul. Can I ask, when were you aware of this cable?
    Secretary Clinton. After the ARB began to gather 
information and material.
    Mr. McCaul. Who within your office did see this cable?
    Secretary Clinton. I am not aware of anyone within my 
office, within the Secretary's Office having seen the cable.
    Mr. McCaul. Within the National Security Council.
    Secretary Clinton. I have no information or awareness of 
anyone in the National Security Council having seen that cable.
    Mr. McCaul. Was this cable a surprise to you?
    Secretary Clinton. You know, Congressman, it was very 
disappointing to me that the ARB concluded there were 
inadequacies and problems in the responsiveness of our team 
here in Washington to the security requests that were made by 
our team in Libya. And I was not aware of that going on. It was 
not brought to my attention, but obviously, it is something we 
are fixing and intend to put into place protocols and systems 
to make sure it doesn't happen again.
    Mr. McCaul. I certainly hope so. I think when you have a 
United States Ambassador personally warning about the situation 
over there, sending this cable to your office----
    Secretary Clinton. If I could, 1.43 million cables a year 
come to the State Department. They are all addressed to me. 
They do not all come to me. They are sorted through the 
bureaucracy.
    Mr. McCaul. Certainly somebody within your office should 
have seen this cable, in my judgment. Could I ask one last 
question?
    Secretary Clinton. Also, I just want to clarify, you know, 
with regard to the security requests subsequent to the August 
16 cable, our personnel in Libya had not submitted any 
additional security requests to Washington at the time of the 
September 11 attack. Now there was an ongoing dialogue, as you 
know, between Libya and Washington.
    Mr. McCaul. Reclaiming my time, it is very limited. An 
emergency meeting was held and a cable sent out on August 16 by 
the Ambassador himself, warning what could happen. And this 
cable went unnoticed by your office. That is the bottom line.
    Secretary Clinton. Well, the facts as we have them, 
Congressman, and I will be happy to have people give you this 
in detail, the August 16 cable stated that security requests 
for Benghazi would be forthcoming. The RSO in Benghazi 
submitted to Tripoli a preliminary list of proposed security 
recommendations on August 23, but no requests were submitted to 
Washington before the attacks. Now this sounds very 
complicated, and to some extent, it is. We are trying to 
simplify it and avoid the kind of problems that are identified.
    Mr. McCaul. One last question, why was he in Benghazi on 
September 11?
    Chairman Royce. Go down to----
    Mr. McCaul. I will submit that in writing.
    Chairman Royce. That will be fine.
    We are going to go now to Mr. William Keating of 
Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    You know, I must say that after the tragedy last September, 
one of the things that just moved me so much were the comments 
of the family members of one of the heroes who lost their 
lives, Glen Doherty in Massachusetts. Paraphrasing them, but 
they told people they shouldn't lose sight over who was 
ultimately responsible for these deaths and made a statement 
putting things into perspective here. And the other thing they 
mentioned was, do not lose sight of the causes that these men 
gave their lives for.
    And as a person who has advanced those causes, I want to 
thank you for your incredible service as Secretary of State.
    Now, one of the parts of the ARB report that is of great 
concern to me dealt with what they described as a culture of 
austerity in the State Department.
    Madam Secretary, can you take a few moments an expand on 
the ARB's finding on that subject and how it affects the State 
Department's ability to carry out crucial tasks, not just 
security but all crucial tasks?
    Secretary Clinton. Well, Congressman, that is what the ARB 
found. They found that there was a culture of husbanding 
resources, of being quite concerned about responding, even on 
security, as important as security is, because one never knows 
what the budget is going to be going forward.
    And we have had some ups and downs budgetary wise going 
back, as I said, into prior administrations, but it is fair to 
say that many of the professionals in the State Department have 
really gotten used to worrying greatly that they will give 
something to somebody, and that will become an expectation that 
will then have to be taken away. And it did affect the security 
professional's decisions according to the ARB.
    Mr. Keating. These prioritizations, in my opinion, in this 
culture has to change, not just for security reasons but our 
overall mission. Just quickly, with the crisis in Mali and the 
insurgency there and spreading jihadist threat in Northern 
Africa, Maghreb, and the Arabian Peninsula. In that area, they 
are relatively technologically advanced, and there are threats 
that go along those lines that I am concerned about in terms of 
cultural austerity there as well.
    Cyber threats and other security upgrades that are going to 
be vitally necessary, and I hope those things are not lost as 
we review this situation. Can you just comment on what we need 
in that regard going forward and how much of a threat that may 
pose to us?
    Secretary Clinton. Well, you mention a word that is rarely 
mentioned in these hearings but I predict will be a major 
threat to us and that is ``cyber'' because it is not only going 
to be nation states, where we already are seeing cyber 
intrusions, both against our Government and against our private 
sector. But increasingly, nonstate actors will have more 
capacity to disrupt, to hack into, to put out false 
information, to accuse the United States of things that can 
light fires before we can put them out.
    So I think it is important we have a really thoughtful 
comprehensive review about the threats of today and the threats 
of tomorrow, and that will help guide the committee. It will 
help guide the Senate and certainly the administration in 
working together to answer them.
    Mr. Keating. Thank you and--thank you, Mr. Chairman.
    I think I am going to do something that hasn't been done 
yet; I am going to yield back the rest of my time.
    Chairman Royce. We go now to Mr. Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman.
    Madam Secretary, thank you, once again, for your service to 
our country.
    Gordon Rowan from Oregon; Frederick Buttaccio from Katy, 
Texas; and Victor Lovelady from my district of Atascocita, 
Texas. Three Americans, overseas killed, not in Benghazi, but 
killed at a remote gas facility in Algeria. Killed, in my 
opinion, because they were Americans. Over the last weekend, 
myself and others have tried to get information. I will just 
say that there is too much, in my opinion, red tape while 
trying to get just basic information to the families as to what 
happened in a situation like that. I would hope that the State 
Department would look at that protocol and try to streamline 
it, because people died.
    The Algerian Government now reports, after they have 
captured some of the terrorists alive, some claiming to be from 
Egypt. One says that, after interrogation by the Algerian 
Government, whatever that interrogation may entail, that there 
were Egyptians involved in the Benghazi attack that were at the 
attack on the gas plant in Algeria. At the time of the Benghazi 
attack, Ansar al Sharia the next day--a terrorist group, as you 
know--they claimed responsibility for the attack. We probably 
don't know if the statements made by the Algeria or, excuse me, 
Egyptian terrorist that was captured are true, if Egyptians 
were followed or were involved in that attack or not. It does 
seem to show that the whole region is very fluid with different 
groups getting together, causing mischief throughout the entire 
region.
    As of today, several months later after the attack in 
Benghazi, has, to your knowledge, any person been put currently 
in custody anywhere, by any government, for the responsibility 
or as a suspect involved in the Benghazi attack?
    Secretary Clinton. Congressman, there is one potential 
suspect, who has been placed under monitoring by the Tunisian 
Government. There are other suspects that the FBI are both 
closely following and consulting with partner governments.
    I think, based on my last conversation with Director 
Muller, which was just a few days ago, he went to Libya. He 
went to Tunisia. He believes that the investigation is 
proceeding. I know that the FBI has been up on the Hill doing 
classified briefings with certain committees; I don't know 
about this committee. But I certainly hope that the FBI is able 
to investigate, identify and hold responsible those who waged 
this attack against us. And I think that, based on their work, 
they feel that they are pursuing some very positive leads.
    Mr. Poe. Okay. My understanding is the Tunisian--the person 
that was held in Tunisia was held by a judge there, and that 
person has been released. So, basically, we don't really know 
at this point who did it.
    Secretary Clinton. Well, Congressman, I confirmed with 
Director Muller, who was just in Tunisia meeting with their 
high officials, that this person is basically under law 
enforcement surveillance and forbidden to leave Tunis. Director 
Muller told me that that had been confirmed to him by the 
Tunisians.
    Mr. Poe. Just very briefly, we don't know who--no one has 
been held accountable, charged with this event. Before Ghadafi 
was taken out, my understanding is the nation of Qatar shipped 
in 18 shipments, 20,000 tons of weapons, machine guns, RPGs 
into the region to help different groups overthrow Omar 
Ghadafi. Did the United States give a wink and a nod to this?
    And I would like a written answer to that, Mr. Chairman.
    Chairman Royce. We will go now to Mr. Cicilline from Rhode 
Island.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, for your extraordinary service 
to our country, that has earned you the deep respect and 
admiration of people all over the world and has enhanced 
America's standing all over the globe.
    Your leadership on women's issues, LGBT equality, 
supporting emerging democracies and enhancing American national 
security are too numerous to list. But I want to begin by 
thanking you for all of your hard work in everything you have 
done in service of our country.
    Thank you also for your testimony today. The terrorist 
attacks on September 11 in Benghazi, Libya resulted in the 
tragic deaths of Ambassador Stevens, Sean Smith, Tyrone Woods 
and Glen Doherty. And these are constant reminders of the 
dangerous work that our diplomats engage in every single day 
all throughout the world. And while we cannot eliminate all 
risks, it is our duty to enact protocols and policies that will 
reduce these risks and to provide all the resources and support 
necessary to help mitigate and manage those risks.
    With that in mind, I hope my colleagues will consider the 
Accountability Review Board, which you, Madam Secretary, 
convened, and it calls for, and I quote, ``A more serious and 
sustained commitment from Congress to support State Department 
needs.'' This is particularly important, given the implications 
that the looming sequester as well as potential government 
shutdown would have on our diplomatic security, especially in 
high-risk posts.
    I also want to take a moment to commend and thank Admiral 
Mullen and Ambassador Pickering for the comprehensive and 
prompt review that they conducted and, of course, applaud you, 
Madam Secretary, for the adoption of all 29 ARB recommendations 
and for promptly undertaking that implementation and providing 
guidance on the status of that implementation here today.
    And just to say, there has been some discuss about the 
importance of getting to the nitty gritty and fixing problems, 
and I hope that we will rely on the security professionals and 
the expert advice and recommendations of the ARB. I think they 
are much more likely to produce the best response to what needs 
to be undertaken.
    And so I want to ask you, Madam Secretary, one of the 
things that you did, in anticipation of some of the 
recommendations, you created for the first time ever a 
Diplomatic Security Deputy Assistant Secretary, and I think, 
with respect to the ARB report, the importance of examining the 
State Department's organization and management as it relates to 
security planning, my expectation is that that would be one of 
the responsibilities of this new position. I am wondering if 
you would just tell us a little bit about the role of this new 
Secretary within the bureau, what responsibilities the position 
will have, and will this individual in particular have the 
authority to reallocate resources in order to fill potential 
resource gaps if that is one of the challenges they will face?
    Secretary Clinton. Thank you, Congressman, this is a Deputy 
Assistant Secretary for High-Threat Posts. I want one person 
held accountable, looking at high-threat posts talking to our 
military and intelligence partners, being a voice at the table, 
not just for all 275 posts but really zeroing in on a real-time 
constant evaluation about what our high-threat posts need.
    But in addition to that, we are going to continue our work 
with the Defense Department and Interagency Security Assessment 
to threats. I am also for the first time elevating a lot of 
these security issues for high-threat posts to the Secretary 
level because it hasn't been there before, and I think, given 
what we have experienced, it needs to be. We are also looking 
for the transfer authority to add to our Marine security 
guards, our construction, and our diplomatic security. We are 
enhancing the training for everyone.
    And we are taking a hard look at another problem that it 
the ARB pointed out and that was other temporary duty 
assignments. You know, very often, given especially the 
experiences we have had in Iraq and Afghanistan and to a lesser 
extent in some other large posts, we have a lot of our most 
experienced diplomatic security people going there. I mean, you 
know, in the--two times we have had serious assaults on our 
Embassy in Kabul. Kabul is fortified. Kabul has ISAF troops 
across the street. As they draw down, we have to recognize that 
the danger is not going to leave with our ISAF military. So we 
have to take a hard look at all of this and we have to embed 
that responsibility in this new experienced Deputy Assistant 
Secretary to do that.
    Mr. Cicilline. Thank you, Madam Secretary.
    I yield back, Mr. Chairman.
    Chairman Royce. Matt Salmon of Arizona.
    Mr. Salmon. Thank you.
    Madam Secretary, I appreciate your desire to come before 
our committee today to testify and answer questions to help us 
make the changes necessary to ensure the safety of all of our 
Foreign Service Officers, but particularly those who are making 
heavy sacrifices serving in high-threat regions.
    But I have to say that I am troubled by what seems to be 
this administration's pattern of misleading the American people 
and failing to hold decision-makers accountable. From Operation 
Fast and Furious, where Attorney General Eric Holder has 
repeatedly misled the American people and Congress about an 
intentional international gun-walking scheme, to U.N. Secretary 
Susan Rice, who on five separate occasions went before the 
American people days after the attacks on Benghazi talking 
about a demonstration at a facility that never happened. It was 
not even suggested in any of the reports and information coming 
from Benghazi.
    And I know the purpose of this hearing is to find out how 
to ensure another Benghazi never happens again. I would hope 
that we would all include the aftermath of the tragedy, as 
well. How can we make sure that such gross misrepresentations 
of attacks on Americans never happen again?
    A couple of other questions. I know you have put the four 
individuals identified as culpable by the Accountability Review 
Board on administrative leave. What do you anticipate the final 
resolution of their status with the Department will be?
    And the Accountability Review Board did not identify any 
individuals above the Assistant Secretary level as accountable 
for the security failures at the Benghazi mission. Now, you 
have said that the numerous cables requesting and begging for 
additional security resources sent by Ambassador Chris Stevens 
were never seen by State officials above Assistant Secretary 
Eric Boswell or Deputy Assistant Secretary Charlene Lamb.
    I know you care very deeply about the people that work with 
you in the Department. So, given the fact that your testimony 
is that you never saw any of these multiple requests and nobody 
above Assistant Secretary level saw these requests, does not 
that give you some concerns about the flow of information 
within the Department, and maybe some of your underlings' 
ability to prioritize and bring serious issues to your 
attention?
    You said that you get hundreds of thousands of cables all 
the time. And these cables sent directly to you, I understand 
that you do not read them all, nor do you have the time to do 
that. But I would think that within the Department you would 
have people who work for you who are able to prioritize and get 
to you the ones that are more serious in nature, and especially 
when somebody's security is on the line.
    Finally, President Truman had a placard on his desk that 
said, ``The buck stops here.'' I know that you have taken 
responsibility, and I applaud you for that. But I really hope 
that this isn't just an exercise, another exercise in finding 
lower-level bureaucrats who we can kind of throw under the bus, 
and actually get somewhere with this. This is not about a game 
of ``gotcha,'' but how we can fix this for the future.
    And I yield back the balance, and I would love your 
answers.
    Secretary Clinton. Well, Congressman, that is exactly what 
I am intent on doing. And I think the ARB, not I, has made its 
findings. The reason ARBs were created is to try to take a 
dispassionate, independent view of what happened and then come 
up with recommendations that are the responsibility of the 
Department to implement.
    You know, the ARB makes very clear that Chris Stevens, who 
probably knew more about Libya than anybody else in our 
Government, did not see a direct threat of an attack of this 
nature and scale, despite the overall trend of security 
problems that we faced. And I have to add, neither did the 
intelligence community. The ARB makes that very clear, that the 
intelligence community also did not really zero in on the 
connection between the deteriorating threat environment in 
eastern Libya and in Benghazi and a direct threat on our 
compound.
    So we have work to do. We have work to do inside the 
Department, we have work to do with our partners in the DoD and 
the intelligence community to constantly be taking in 
information, making sure it does get to the right people, that 
it isn't somehow stove piped or stalled but that it does rise 
to decision-makers. And I am committed to improving every way 
that I can on what the ARB told us to do, on assessing our 
intelligence.
    And I think that it is fair to say, Congressman, that we 
have to do this now because I predict we are going to be, as we 
saw in Algeria, seeing all kinds of asymmetric threats, not 
just to our Government facilities but to private-sector 
facilities. In Tunisia, although we protected our Embassy, our 
school was badly damaged. So we have to take a broader view. 
And I think that the ARB gives us a start, but it is not the 
whole story.
    Chairman Royce. Mr. Grayson from Florida.
    Mr. Grayson. Thank you, Mr. Chairman.
    And thank you very much, Secretary Clinton, for your 
contributions to securing America's place in the world for the 
past 4 years and for your contributions toward world peace.
    The first question I would like to ask you has to do with 
the Accountability Review Board's report. The report does 
identify specifically people who were found to have engaged in 
the Department in systematic failures and deficiencies. I want 
to be clear about this: You were not one of those people; is 
that correct?
    Secretary Clinton. That is correct.
    Mr. Grayson. All right.
    Now, it was identified earlier that a report dating from 
the 1990s had said that the Secretary should take a personal 
and active role in security. Have you done that during your 4 
years at the State Department?
    Secretary Clinton. I have been very attuned to the 
environment in which threats are occurring, the intelligence 
that is available; certainly not the specific requests and 
decision-making, which rests with the security professionals.
    Mr. Grayson. All right.
    Regarding the security professionals, is there anybody now 
in existence in the Department who is responsible for reviewing 
the itineraries of Ambassadors in advance in order to determine 
whether there is an undue threat to their safety?
    Secretary Clinton. The general answer to that is no. 
Ambassadors are given what is called ``chief of mission 
authority.'' Ambassadors, especially those who we ask to go to 
dangerous posts, are pretty independent folks. Some them might 
say, well, what do you think about this or that? But most of 
them make their own decisions.
    Chris Stevens did not ask anyone for permission to go to 
Benghazi; I don't think it would have crossed his mind. Robert 
Ford, who served as our Ambassador to Syria, went out on 
numerous occasions to talk to the opposition before we pulled 
him out of Damascus. We had, you know, very brave Ambassadors 
like Ryan Crocker, one of our very best, who it would be very 
difficult to say, Ryan, you can't go do this even though you 
have decided that you should do it.
    But what we are trying to do is to create a more ongoing 
discussion between our Ambassadors, our bureaus back in the 
State Department who are regional experts, and our security 
people so that, at the very least, no Ambassador is taking an 
unnecessary risk, however that is defined.
    Mr. Grayson. Well, with regard to Ambassador Stevens, 
certainly it was brave of him to go to Benghazi on the date 
that he did. I have to ask you honestly, though, was there 
anything in his itinerary on the 10th or the 11th that actually 
specifically required his personal presence?
    Secretary Clinton. Well, he certainly thought so, 
Congressman. And he did, of course, discuss this with his own 
security people. Remember, we do have regional security 
officers in these posts. They are the ones that an Ambassador 
will turn to.
    He believed that it was important for him to go to 
Benghazi. There were a number of meetings that he was holding 
and some public events that he had on his schedule. And, you 
know, he was someone who really believed strongly he had to get 
out there. And I think, as the ARB has pointed out, he was 
given great deference by the rest of the government.
    Mr. Grayson. Do you have any concept of the number of 
American troops it might have taken to actually create a 
totally secure environment for him in Benghazi on September 10 
and 11?
    Secretary Clinton. No. The number of Diplomatic Security 
personnel requested in the cables was five. There were five 
there that night with him. Plus, there was a mutual 
understanding with the annex that had a much more heavily armed 
presence because of the work that they were doing in the 
region.
    It is very difficult to, in retrospect, really anticipate 
what might have been. One of the RSOs who had served in Libya 
said the kind of attack that the compound suffered had not been 
anticipated. We had gotten used to, you know, preparing for car 
bombs and suicide bombers and things like that, but this was of 
a different nature.
    And we even saw that, at the annex, which was much more 
heavily fortified, had much more heavy military equipment, we 
lost two of our best and had one of our Diplomatic Security 
officers badly injured. He is still at Walter Reed. So even the 
annex, which had more assets in the face of the attack, was 
suffering losses that night.
    Mr. Grayson. Thank you very much.
    Chairman Royce. Mr. Marino of Pennsylvania.
    Mr. Marino. Good afternoon, Madam Secretary.
    In August 2012, prior to the Benghazi attack, the Library 
of Congress published a report on behalf of a division of DoD 
called ``Al-Qaeda in Libya: A Profile.'' This report outlined 
al-Qaeda's growing presence in Libya, particularly in east 
Libya, where Benghazi is located. Something that was especially 
alarming to me in this DoD report was the mention that Ansar 
al-Sharia and other al-Qaeda groups in Libya have adopted the 
black flag, which symbolizes commitment to violent jihad, 
promoted by al-Qaeda's senior leaders.
    In my hand, I hold a picture of the flag that the 
Department of State identified to be a prominent issuance of 
this flag and on the rise in Libya. I also hold a picture of 
the same flag, same type of flag, in Tunisia, where the 
protesters were outside the Embassy there. In addition, I have 
a flag--a picture that was taken in Cairo at the U.S. Embassy, 
where demonstrations took place. Another picture in Jordan at 
the U.S. Embassy, where protests took place. In Bahrain, over 
2,000 protesters who burned numerous U.S. and Israeli flags, 
again at the Embassy. In Kuwait, U.S. Embassy, 500 
demonstrators chanting, ``Obama, we are all Osama,'' the flag 
again. And finally in Libya, the U.S. compound, the flag was 
flown there and carried through the streets, as well.
    My question, Madam Secretary, is, were you aware of this 
DoD report prior to the terrorist attack in Benghazi?
    Secretary Clinton. Well, I was certainly aware of a number 
of reports from throughout our Government. I don't know of the 
specific one that you are referring to. There were DoD reports, 
intelligence community reports, State Department reports 
talking about the decreasing--or the increasing threat 
environment in eastern Libya. That was what we were trying to 
address with the Libyans.
    And remember, the election in July in Libya brought to 
victory what we would consider moderates, people who had a very 
different view of the kind of future than, certainly, al-Qaeda 
or any of these militants have.
    But there is going to be a struggle, there is going to be a 
struggle in this region. And the United States has to be as 
effective in partnering with the non-jihadists, whether they 
fly a black flag or any other color flag----
    Mr. Marino. I clearly understand that----
    Secretary Clinton [continuing]. To be successful.
    Mr. Marino [continuing]. Madam Secretary.
    Secretary Clinton. What?
    Mr. Marino. I clearly understand that. However, this flag 
was pointed out to be affiliated with al-Qaeda terrorists who 
attack and kill United States citizens and other individuals 
around the world.
    Did anyone in your department below you, were they aware of 
this report and these photos prior to? And don't you think they 
should have brought this to your attention?
    Secretary Clinton. Well, what I am trying to say, 
Congressman, is I am well aware that there were people claiming 
to be associated with al-Qaeda that were attempting to 
influence militias, attempting to exercise more authority, 
along with a number of other groups that didn't necessarily 
work under that flag but had the same militant jihadist 
mentality.
    So, yes, I was certainly aware of that. And so was Chris 
Stevens.
    Mr. Marino. But my point----
    Secretary Clinton. And so was our team in Libya.
    Mr. Marino. But my point is this flag kept coming up, and 
you did not think that that was important enough to increase 
security, when, after how many Embassies where this flag was 
shown in demonstrations? I personally think that it would 
demand an increase in security. And those below you that might 
have known this should have brought that to your attention.
    Secretary Clinton. Well----
    Mr. Marino. I come from industry. I come from government. 
And there are individuals that just have to be cut loose when 
they are not performing their tasks. Are these three people 
that are on leave, are they still being paid?
    Secretary Clinton. They are on administrative leave, and 
under Federal law and regulations, they are still being paid.
    Mr. Marino. What is the holdup?
    Secretary Clinton. Because there are regulations and law 
that have to be followed.
    Mr. Marino. No, no. Well, what is the holdup from a 
management perspective of saying, you three let me down, this 
should have been brought to my attention, I no longer need your 
services?
    Secretary Clinton. Well, Congressman, I would be happy to 
give you an answer, because personnel discussions are not 
appropriate for public settings. But we have taken every step 
that was available, and we will continue to do so, and we are 
looking for additional authority.
    But to just finish up on the point you made, we had good 
security at all of those Embassies, other than in Tunisia 
because of the newness of the government. And then when they 
were asked to respond, they did.
    Because I go back to the point that was made on the other 
side of the aisle: We are dependent on host-government support. 
And where it doesn't exist, unless we invade and unless we have 
a big military presence in a country, we are doing the best we 
can with our Diplomatic Security and private security guards 
and any other help we can get.
    Chairman Royce. Mr. Vargas of California.
    Mr. Vargas. Thank you very much, Mr. Chairman, for the 
opportunity.
    And thank you very much, Madam Secretary, for being here. I 
also want to thank you for the excellent work that you have 
done not only here in the United States but across the world. I 
have to say that because it is true, one, and, secondly, I 
don't think that my wife, my 16-year-old daughter or my 9-year-
old daughter, she would probably even turn on me and wouldn't 
let me in the house if I didn't say that. You are a hero to 
many, especially women. And you seem to bring out these deep 
aspirations that they have in ways that I have never seen 
anyone do before. So, again, thank you for your service.
    When I was reading the information here, it brought back to 
mind another assassination, murder. I was a Jesuit for 5 years, 
and I spent some time in El Salvador. And in 1989, there was an 
assassination of Father Ignacio Ellacuria, Father Segundo 
Montes, Father Ignacio Martin-Baro, Father Juan Ramon Moreno, 
Father Armando Lopez, Father Joaquin Lopez y Lopez, and also 
the housekeeper, Mrs. Elba Ramos, and her young daughter--she 
was 15-years-old--Celina Ramos. I knew them because I worked 
with them. Segundo Montes was my superior. And I know the pain 
that I felt when I heard that they died. I had left the Jesuits 
by then. And so I know that, as you being the superior of the 
people who died, I am sure felt the same way.
    And that is why I am glad that we brought up the names here 
today. I think it is important to mention the names: Ambassador 
Christopher Stevens, Mr. Sean Smith, Mr. Tyrone Woods, Mr. Glen 
Doherty. Because many of us who have faith believe that they 
didn't die in vain. And that is why I am very proud that you 
are here bravely standing before us, trying to figure out what 
to do.
    And one of the things that did trouble me as I read this 
was the reliance that we have on local security. That is the 
part that didn't make sense to me. I come from San Diego. We 
have the Marine Corps there. We have the Navy. We have 
incredibly good security and service people. Why don't we rely 
more on them?
    Secretary Clinton. Well, that is an excellent question. And 
you brought back some very sad memories in talking about the 
losses that occurred in El Salvador.
    You know, we do rely primarily on host-nation support, but 
we have to take a harder look at the commitment and the 
capacity of these host nations. And, therefore, in places all 
over the world, we also have private security guards, some 
armed, some unarmed. We have Marine guards at many places, 
about 150, who at least are demonstrating a line of defense. 
But we have to do more.
    And when you ask, why do we rely on these? Well, in part 
because we don't have military assets everywhere. If you look 
at the statements particularly by Admiral Mullen, who was our 
Chairman of our Joint Chiefs, he basically said, look, we have 
to work together more closely between State and DoD, but it is 
unrealistic, in his words, to tether our military to every 
high-risk post.
    So part of what we are trying to struggle through with is, 
how do we make our facilities as secure as possible without 
turning them into fortresses? Because our diplomats are not 
soldiers. How do we have reliable private security? The 
February 17th Brigade was a Libyan Government-supported militia 
that started defending Chris Stevens when he showed up before 
Ghadafi fell. They had been reliable, they had been responsive. 
But they were not particularly available during those first 
minutes and hours of the attack on our compound.
    So we also had contracted with a private security company 
that had a permit to operate in Libya. Because, you know, the 
United States, unless we go into a country with massive 
military force, we, you know, go in and we follow the rules of 
the country. And we had to get a security force that had a 
permit from the Libyan Government.
    So these are all issues that are being looked at so that we 
try to fill the gaps that have been identified.
    Mr. Vargas. Well, thank you.
    And the last thing I would just correct that you said 
earlier, that we haven't done enough about promoting ourselves 
around the world, I think you have. I think you have done a 
fantastic job. And other than President Kennedy, I don't know 
of anyone that has had a better image in Latin America. So we 
thank you.
    Secretary Clinton. Thank you very much, Congressman.
    Chairman Royce. We go now to Mr. Duncan of South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman.
    And, Madam Secretary, let me just tell you, Americans are 
frustrated. They are frustrated over the handling of Benghazi, 
what happened when four Americans died there. They are 
frustrated and sometimes they are downright angry about being, 
what they think, being misled about what really happened there, 
being told that this was a protest over a video not just for a 
couple of days but for weeks on in.
    And then they are frustrated when they see comments from 
you this morning when you said, what difference at this point 
does it make? I will tell you what difference it makes. It 
makes a difference when Americans think they were misled about 
something for political reasons.
    In the hearing this morning, you mentioned that we were 
clear-eyed about the threats and dangers as they were 
developing in eastern Libya. Madam Secretary, if you were 
really, in your words, clear-eyed about the levels of threat to 
our consulate in Benghazi, or our special mission in Benghazi, 
then you should have known about Chris Stevens' memo, I believe 
of 16 August, that said our consulate could not be defended 
from a coordinated attack.
    The question Americans have is, did he expect an attack? If 
you were clear-eyed, then why did your department reject the 
request, I believe on 7 June, for 16 additional security 
agents, the site security team that would have been funded by 
DoD, not a State expenditure?
    If you were clear-eyed, shouldn't you have known that there 
was no real Libyan Government to turn to for security 
assistance? You answered that question from Mr. Meeks earlier, 
when you said you were unsure about the Libyan Government and 
their ability to provide that assistance.
    If you were clear-eyed, were you clear-eyed about al-
Qaeda's displeasure with whom we seemed to be supporting during 
the summer elections, the moderate that was elected?
    If you were clear-eyed, shouldn't you have known that al-
Qaeda roamed freely in and around Benghazi? As my friend from 
Pennsylvania pointed out, there were al-Qaeda flags not just at 
the protest, there were al-Qaeda flags flying all over 
Benghazi.
    If you were clear-eyed, were you clear-eyed when the Brits 
left Benghazi because they had the attack? Why did four 
Americans die? What was so important that Ambassador Stevens, 
if he knew there was a security threat in Benghazi--and he went 
there on September 10 and 11 and gave his life for our 
country--what was so important for him to go to eastern Libya, 
knowing all these threats, knowing the memos are clear?
    And I think you misspoke earlier when you said that you 
didn't know of any requests that were denied for more security. 
June 7 e-mail exchange between Ambassador Stevens and John 
Moretti, when he requested for one MSD team, or, actually, an 
additional MSD team. And the reply from John Moretti said, 
unfortunately, MSD cannot support the request. There was a 
request made for more security, and it was denied on June 7.
    And so, Madam Secretary, you let the consulate become a 
death trap, and that is national security malpractice. You said 
you take responsibility. What does responsibility mean, Madam 
Secretary? You are still in your job, and there are four people 
at the Department of State that have culpability in this that 
are still in their jobs.
    I heard the answer about firing or removing personnel. I 
get that. But this was gross negligence. At what point in time 
can our administration and can our Government fire someone 
whose gross negligence left four Americans dead in Benghazi?
    What does the word ``responsibility'' mean to you, Madam 
Secretary?
    Secretary Clinton. I think I have made that very clear, 
Congressman.
    And let me say that we have come here and made a very open, 
transparent presentation. I did not have to declassify the ARB. 
I could have joined 18 of the other ARBs, under both Democratic 
and Republican administrations, kept it classified, and then, 
you know, just said ``goodbye.'' That is not who I am; that is 
not what I do.
    And I have great confidence that the Accountability Review 
Board did the job they were asked to do, made the 
recommendations that they thought were based on evidence, not 
on emotion, not on----
    Mr. Duncan. There was a lot of evidence----
    Secretary Clinton. Well----
    Mr. Duncan. Reclaiming my time, there was a lot of evidence 
that led up to the security situation.
    Secretary Clinton. Well, I am sorry, Congressman----
    Mr. Duncan. You mentioned transparency? You haven't 
provided the call logs of the messages, instant messages, 
during the attack between the post and the operations center. 
In an air of transparency, will you release these 
communications between Benghazi, Tripoli, and Washington?
    Secretary Clinton. I will get an answer to you on that. But 
I will tell you once more, the reason we have Accountability 
Review Boards is so that we take out of politics, we take out 
of emotion what happened, and we try to get to the truth. I 
think this very distinguished panel did just that. And we are 
working diligently overtime to implement their recommendations. 
That is my responsibility. I am going to do everything I can 
before I finish my tenure.
    And I would also, going back to your first point about the 
concerns that people you represented have expressed about 
statements that were made, I would refer you both to the 
unclassified version of the ARB, where, after months of 
research and talking to more than 100 witnesses, the picture is 
still very complicated about what happened that night. ``There 
are key questions''--I am quoting--``surrounding the identity, 
actions, and motivations of the perpetrators that remain to be 
determined.'' And I recommend that every member read the 
classified version, which goes into greater detail that I 
cannot speak to here today.
    Mr. Duncan. It was a terrorist attack. It is pretty clear 
what the motivation was.
    Chairman Royce. Mr. Schneider.
    Mr. Schneider. Madam Secretary, let me again thank you for 
joining us.
    Thank you for opening up the ARB report. We are grateful.
    And let me also echo the words of my colleagues and extend 
my own personal gratitude for your service. You did our Nation 
well and made our people proud. You have done an extraordinary 
job as our Nation's top diplomat, and you will be sorely 
missed.
    The Benghazi attack claimed the lives of four brave 
Americans, including Ambassador Chris Stevens, who had done so 
much to liberate the Libyan people. Despite the risk involved, 
he returned to that country as our Ambassador because he knew 
the important work of building a new Libya remained unfinished.
    America's diplomatic corps dedicate their lives to 
promoting Americans' interests abroad and knowingly put 
themselves in danger to serve their country. While we know that 
these jobs are not without risk, we must do more to support our 
diplomats.
    I am pleased that the State Department conducted a serious 
investigation, and I appreciate that you have already stated 
that you will accept every one of the 29 review board's 
recommendations.
    The State Department is increasingly operating in high-
threat locations throughout the world, requiring our diplomats 
to be stationed further afield and closer to dangers on the 
ground. This not only raises the security risks faced by our 
diplomats and development experts but also places a strain on 
existing resources.
    As we move forward, how will the State Department evaluate 
the benefits to U.S. interests from having an official presence 
in a given location versus the security risks faced by that 
diplomatic mission? How do you expect the Department will weigh 
the physical and technical personnel and political costs as 
opposed to the gains of operating in frontline states? And, 
last, what changes do you think these demands will require vis-
a-vis people and other resources at the State Department?
    Secretary Clinton. Those are very important questions, and 
I can't do justice to them in the time left, but we will 
certainly get you additional written information.
    But let me briefly say, Congressman, that, you know, I 
ordered the first ever Quadrennial Diplomacy and Development 
Review because, as I said, I served on the Armed Services 
Committee, where we get every 4 years a Quadrennial Defense 
Review, which really does help the Armed Services Committees in 
both houses plan for their authorization, and I wanted to lay 
the groundwork for us to do the same with the State Department.
    In that document, we began what is a very difficult 
analysis about how to balance and mitigate risk versus 
presence. It was one of the most challenging aspects of the 
QDDR process, and we have an ongoing effort under way. Because 
if you talk to many of our Ambassadors, especially the 
experienced ones, they really don't want to be told by 
Washington or anybody where they can go, when they can go, what 
they can do. They have been in the Foreign Service 10, 20, 30 
years or more, and they believe in their missions, and they 
believe they have a better sense of how to evaluate risk.
    At the same time, we do have to be conscious of and make 
difficult decisions about how to protect not just Ambassadors 
but all of our personnel and their families in these high-risk 
posts. It is a constant debate, Congressman.
    You know, we have authorized departure, we have ordered 
departure, and it is something that we take very seriously when 
we do it. You know, when we left Benghazi on the night of 11th-
12th, there were others still there. The Italians were there; 
the Turks were there. The Italians had just left.
    I mean, people evaluate risk over time, and I think it is 
important to do what we can to minimize it. Some of that will 
be done by technology, some of that will be done by hard 
security, and some of that will be done by what we call soft 
power. But trying to get the balance right is very difficult.
    Mr. Schneider. As we look forward to the steps taken, we 
will be in new places, we are going to face new challenges. How 
do we make sure that we are able to provide the resources to 
these high-threat, high-risk posts?
    Secretary Clinton. It is very, very difficult. You know, 
that is going to be a question of new streamlined processes and 
protocols; sufficient security, both hard and soft; and 
resources. And we just have to--we have to ask you, based on 
our best assessment, about what we need to do our jobs.
    And sometimes, you know, you have a budget process, and 
nobody has predicted that you are going to have a revolution 
against Ghadafi, and then you have to scramble. How do you get 
somebody into Benghazi? How do you figure out what to do in 
Tripoli? And I could go down the line and tell you 10 or 20 of 
those examples that we live with every day.
    So it is more of an art than a science, to be honest, 
because, as of now, we don't have, you know, hard parameters, 
but we are trying to develop the best we can.
    Mr. Schneider. Thank you.
    Chairman Royce. Madam Secretary, I understand that you have 
a meeting at the White House but have agreed to stay so that 
members can have a few more questions. We will end by 5 
o'clock. And we really appreciate that.
    We go to Mr. Kinzinger of Illinois.
    Mr. Kinzinger. Well, thank you, Mr. Chairman.
    Madam Secretary, thank you for staying. I really appreciate 
it. I appreciate your service to your country. And, you know, 
as was mentioned earlier, we look forward to your next steps. 
We will see what happens.
    Let me just say, I am actually an Air Force pilot. And I 
have a few concerns I want to lay out here. One of the first 
things I was told as a pilot in the military is that your 
country will never leave you behind. If you find yourself down 
in enemy lines, rest assured your country will move heaven and 
earth to come get you. If you find yourself in armed conflict, 
rest assured your country will do everything in its power to 
come save you from that armed conflict.
    Now, as a representative of the administration here, I have 
to ask you this: From the initial attack to the second attack, 
there was a lull of 7 hours.
    Now, I am going to say this; I was one of a handful of 
Republicans to vote to support the President's position in 
Libya. I think we did the right thing there. But I did it with 
the knowledge that we would have the military forces in place 
to be able to rescue any personnel in a tough situation.
    In that intervening 7 hours, military assets, to what we 
know, what we can talk about, were not put in place. Aviano Air 
Base is 1,044 miles from Benghazi. Aviano Air Base is an F-16 
base. Airplanes could have been put in the air, after being 
fueled, even if they didn't have missiles on them. And there 
can be nonviolent things that F-16s can do to disperse crowds 
that I know of well. So that is a concern.
    Originally, also, when you briefed us, I remember--and this 
has been, I know, hammered a little bit--but when you briefed 
us, you said unequivocally this was a result of the video. And 
I remember, in fact, you got pretty upset about it when 
somebody suggested that this was a terrorist attack. This was 
our briefing that we had. But we find out now it wasn't. We 
find out now that it wasn't the video, it was this terrorist 
attack.
    When we come to talk about the issue of the drone and the 
surveillance overhead, if there was, in fact, a drone overhead, 
I would assume that there would be a link in which you could 
watch what is going on live, or else maybe somebody under you 
was able to see what was going on live, or else that link was 
down.
    And another question I have, when it comes to--I watched 
your testimony in the Senate, and you said, you know, part of 
the reason we had a little bit of delay in understanding what 
was going on, we did not have immediate access to the security 
cameras, the security footage. But yet, at the same time, you 
had mortars being reported as being fired on security 
personnel. If I would hear that mortars are being fired, I 
would immediately assume, regardless of whether I could see 
what is going on overhead, regardless of if I could see the 
security footage, that this is more than a spontaneous 
demonstration.
    The other question I have, too--I am laying a few out for 
you--the FEST team, the foreign response team, was that your 
decision not to deploy that right away? Was that an issue of 
logistics? Where does that come from?
    And the final thing I want to say is this. As, again, a 
believer, which I think you believe, that we are in a time 
where it is very important for American leadership to be out in 
front to prevent a resurgence of jihadist activity, of al-Qaeda 
activity, I am worried about the strategy of leading from 
behind.
    If the United States Ambassador in Libya--and I say this 
respectfully--can't get a message forward to the Secretary of 
State about his concern about security in one of the most hot 
zones in the world, I worry about a lead-from-behind strategy.
    And if we have no assets on alert that can respond in a 7-
hour lull in two different attacks in the most hot spot, one of 
the most hot spots in the world, on 9/11, on the anniversary, 
is the lead-from-behind strategy failing?
    Because I really want American leadership to be strong. I 
believe in freedom, and I believe we are the people that are 
going to be able to take freedom around the globe.
    With that, I will give you the remaining minute, and I 
thank you for your generosity.
    Secretary Clinton. And I thank you for your service, 
Congressman, both in the Air Force and here.
    There was a lot packed into that. Let me see what I can 
cover quickly, and then we will get the rest to you in writing. 
DoD took every action it could take, starting from the time 
that the President directed Secretary Panetta and Chairman 
Dempsey to do so.
    Again, I turn to the ARB because that is, to me, a much 
more factually based finding. The board found no evidence of 
any undue delays in decision-making or denial of support from 
Washington or from military combatant commanders. Quite the 
contrary, the safe evacuation of all U.S. Government personnel 
from Benghazi 12 hours after the initial attack, and 
subsequently to Ramstein, was the result of exceptional U.S. 
Government coordination and military response and helped save 
the lives of two severely wounded Americans.
    Now, having said that, I think it is very important we do 
more to coordinate with DoD along the lines of what you are 
talking about, because who knows what is going to be facing us 
in the next months and years?
    With respect to the video, I did not say that it was about 
the video for Libya. It certainly was for many of the other 
places where we were watching these disturbances.
    Now, with respect to Predator feed or video of the attack, 
we could not see that at the State Department. There was no 
access to that. At no time did I have a live feed of the 
attack, not from any system in our compound and not from the 
annex, nor from any UAV. There has been confusion, 
understandably, because we did talk a lot about the 
surveillance camera video that eventually got to us.
    I will give you more information about that because I think 
it is important to understand how this happened. And, as you 
know, Congressman, the annex was not under my authority. So 
information was flowing into another agency, more than one 
other agency. And those people were incredibly brave, but 
overwhelmed as well.
    Chairman Royce. Mr. Kennedy of Massachusetts.
    Mr. Kennedy. Thank you, Mr. Chairman, Mr. Ranking Member.
    And, Madam Secretary, thank you for what I can only 
describe as a truly exemplary career in public service and a 
dedication to public service.
    Secretary Clinton. Thank you.
    Mr. Kennedy. And I look forward to what the future holds 
for you, as well.
    I have two broad-based questions for you, if I can, Madam 
Secretary.
    You now have obviously held this office for 4 years at an 
extraordinarily challenging time in our history. We recently 
passed the 2-year anniversary of the Arab Awakening. We are 
seeing in the recent headlines, emerging threats from Algeria 
and Mali across Northern Africa, spreading out through the 
Middle East--Iran, Pakistan, and Afghanistan.
    As you close on your tenure, I was wondering if you might 
be willing to share some important lessons learned from the 
time that you have spent in this post and enlighten us as to 
what Congress can do to help respond and even get in front of 
these threats as you move forward.
    And related to that, if I may, assuming that you are going 
to say what you have said a couple of times about increased 
engagement at the ground level, how do we do that in areas that 
are unstable, where we need to depend on local governments or 
local security forces that, quite frankly, we have seen don't 
have the ability to provide the type of security that our 
diplomats are going to demand?
    Secretary Clinton. Well, Congressman, it is wonderful to 
see you here. And I thank you for your interest in looking, 
sort of, into the future.
    Let me just make a couple of points.
    First, we have a lot of tools that we don't use as well as 
we should. I think we have abdicated the broadcasting arena, 
where both in TV and radio, which are considered kind of old-
fashioned media, are still very important in a lot of these 
ungoverned areas, a lot of these difficult places where we are 
trying to do business. And I think we have to get our act 
together. I would hope that this committee would pay attention 
to the Broadcasting Board of Governors, which is in desperate 
need of assistance, intervention, and change.
    I think, too, social media is a great tool. We have begun 
trying to use it much more in the State Department, and not to 
communicate with just, you know, leaders and officials, but 
really, as you say, get down into the grass roots.
    We have also--I started two organizations to deal with 
countering violent extremism: One, a new operation inside the 
State Department that is staffed with interagency experts so 
that--you know, I am not saying anything that is classified, 
but it is beginning to try to respond to al-Qaeda and other 
jihadist propaganda. So if they put up a video which talks 
about how terrible Americans are, we put up a video which talks 
about, you know, how terrible they are. We are trying to meet 
them in the media channels that they are communicating with 
people.
    We are also at the beginning of an organization I helped to 
stand up, the Global Counterterrorism Forum. Because if we 
don't work with partners and understand more effectively how to 
counter violent extremism, how to stop recruiters, how to turn 
families and communities against these jihadists, there will be 
a constant flow of them. So we have to be smarter about that.
    And there are other things that I would, you know, like to 
share with you and others on the committee who are interested.
    You know, it is not a perfect analogy, but I would say that 
our fight against international communism, against the Soviet 
Union, during the cold war, we did a lot of things really well. 
I mean, we kept people's hopes alive, we communicated with 
freedom lovers and advocates behind the Iron Curtain. We did it 
through media, we did through our values. Well, I think we have 
a similar challenge, even though it is a very different world. 
And let's get smart about it, and let's figure out how we are 
going to put some points on the board, so to speak, in dealing 
with both governments and populations.
    And if I could, just very--I know that Representative 
Duncan has left, but his question took me a little by surprise 
because our ops center does not do instant messaging. So the 
reason you haven't gotten instant messaging is we don't do 
instant messaging. So I wanted to put that into the record and 
hope that his staff or someone will convey that to him.
    Thank you.
    Mr. Kennedy. Thank you.
    Chairman Royce. Thank you.
    We will go to Mr. Brooks of Alabama.
    Mr. Brooks. Thank you, Mr. Chairman and Secretary Clinton. 
It is an honor to be here today. And I want to thank you for 
the time that you have spent with us and with the Senate, for 
that matter. I am sure it has been a long day.
    It has been my experience that truth without credibility is 
meaningless, and credibility, once lost, is difficult to 
reacquire. My concern is the degree to which false statements 
about Benghazi have damaged America's credibility not only here 
but also abroad.
    I don't focus on any of your statements in that regard; 
rather, I focus on some others. On September 16, 2012, on Meet 
the Press, Ambassador Susan Rice stated, and I quote,

        ``What happened in Benghazi was, in fact, initially a 
        spontaneous reaction to what had just transpired hours 
        before in Cairo. Almost a copycat of the demonstrations 
        against our facility in Cairo, which were prompted, of 
        course, by the video.''

    Now, let me break this statement down to three parts, if I 
might. And I would ask you to confirm, based on the data we now 
have, whether her comments were true or false.
    Secretary Clinton, is Ambassador Rice's statement that 
Benghazi was a spontaneous reaction to the Cairo protests 
factually accurate?
    Secretary Clinton. Well, I think if you look at the ARB 
finding, Congressman, there is still question about what caused 
it. So I don't want to mislead you in any way. That is not the 
weight of the evidence right now. But I think until the FBI 
completes its investigation, we are not going to know all the 
reasons why these people showed up with weapons and stormed our 
compound.
    Mr. Brooks. Well, Secretary Clinton, is Ambassador Rice's 
statement that Benghazi was a copycat of the Cairo 
demonstrations factually accurate?
    Secretary Clinton. Well, it turned out not to be because 
the Cairo demonstrations were not heavily armed, and we did 
eventually get host-nation security support. So there were 
differences.
    But, again, I would say that Secretary Rice conveyed 
information that had been provided by the intelligence 
community and the interagency process.
    Mr. Brooks. I am not trying to go into the process right 
now. I am just trying to determine what the truth is as best we 
know at this time.
    Secretary Clinton, is Ambassador Rice's statement that 
Benghazi was ``prompted, of course, by an anti-Muslim video'' 
put on the Internet in the United States factually accurate?
    Secretary Clinton. I would have to go back to my first 
answer, Congressman, and just say that we don't know all the 
motivations, so I don't want to give a sweeping answer as to 
what prompted those men to come out that night and attack our 
compound.
    Mr. Brooks. Okay. Well, on September 16, the very same day 
U.N. Ambassador Susan Rice made her statements to the American 
people and the world, Libyan President Mohammed Magariaf said 
on NPR that the idea that this criminal and cowardly act was a 
spontaneous protest, that it just spun out of control, is 
completely unfounded and preposterous. We firmly believe that 
this was a precalculated, preplanned attack that was carried 
out specifically to attack the United States consulate.
    As we now know, from everything I have read at least, the 
Libyan President told the truth. Contrast that with the 
statements by Ambassador Rice, to the United Nations. It forces 
one to wonder whether Libya's intelligence was that much better 
than America's on September the 16th or whether Libyan leaders 
were that much more willing to be candid or to avoid 
misstatements.
    Secretary Clinton, what evidence was there that was so 
compelling that it caused the White House, through Ambassador 
Susan Rice, to make these representations about spontaneous 
protests, anti-Muslim videos, and the like, despite evidence 
and statements of Libya's own President to the contrary? You 
know, if she is going to make these statements, an affirmative 
act on her part, where was the compelling evidence, and what 
was it?
    Secretary Clinton. Well, Congressman, I was not involved in 
the so-called talking points process. My understanding is it 
was a typical process trying to get to the best information 
available. It was an intelligence product. They are, as I again 
understand it, working with their committees of jurisdiction to 
try to unpack that.
    But I will say that all of the senior administration 
officials, including Ambassador Rice, who spoke publicly to 
this terrible incident, had the same information from the 
intelligence community.
    Mr. Brooks. If I might interject. I appreciate your 
response so far. But if you are not familiar with any 
compelling evidence that would support the statements made by 
Ambassador Rice, who would know?
    Secretary Clinton. Well, there was evidence, and the 
evidence was being sifted and analyzed by the intelligence 
community, which is why the intelligence community was the 
principal decider about what went into talking points.
    And there was also the added problem of nobody wanting to 
say things that would undermine the investigation. So it was 
much more complex than I think we are giving it credit for, 
sir.
    Mr. Brooks. Thank you for your candor, and thank you for 
your time.
    Chairman Royce. The ranking member and I have discussed 
going to 3 minutes for questions from here on out. And, without 
objection, that is what we will do.
    Let's go to Mr. Bera from California.
    Mr. Bera. Secretary Clinton, thank you for appearing before 
the committee today.
    You know, as a new Member of Congress, I think I speak for 
all the freshmen that we are not going to get much time to 
serve with you, but we hope in a few years we will get that 
chance to serve again.
    You know, from my perspective, the tragedy in Benghazi was 
the loss of four American patriots. That loss was felt pretty 
deeply in northern California, particularly around Ambassador 
Chris Stevens. You know, his family had deep roots in our 
community.
    The best way for us to honor their memory and their service 
is to do our utmost to make sure the lessons of Benghazi--and 
do everything that we can to honor and protect our men and 
women around the world, you know, in an increasingly dangerous 
situation. You have been very forthright today and forthcoming 
with information, and we truly appreciate that.
    You know, much has been made today about the flow of 
information, but I want to quote former Chairman of the Joint 
Chiefs of Staff, Admiral Mike Mullen, who said after the ARB 
was issued, ``As someone who has run large organizations--and 
the Secretary of State has been very clear about taking 
responsibility here--it was, from my perspective, not 
reasonable, in terms of having a specific level of knowledge 
that was very specifically resident in her staff, and over time 
certainly didn't bring that to her attention.'' That was 
Admiral Mike Mullen.
    Secretary, how many cables did you say arrive every year to 
the State Department? One-point-four million? Can you tell me 
how long it takes you to read 1.4 million cables?
    Secretary Clinton. Well, if I had ever tried to read 1.4 
million cables, I don't think I would be sitting here today. I 
would probably be, you know, collapsed somewhere.
    You know, I appreciated what Admiral Mullen said because 
when you do sit on top of large organizations--in his case the 
United States military, which is huge, and in my case the State 
Department and USAID--you put into place processes. And you 
have to trust the judgment, the good sense of the people in 
your organization.
    So those 1.43 million cables, they come into the State 
Department. You know, the tradition is they are all addressed 
to me, but, you know, the vast, vast majority are funneled 
through these processes to get to the right people, who are 
expected to take the right actions. And 99.9 percent of the 
time people do.
    I want to reiterate that. It is an incredible organization, 
with dedicated people, particularly our security professionals, 
who have stopped so many attacks, protected so many people. But 
occasionally we see a serious problem like we have seen here, 
and that is what we are trying to fix.
    Mr. Bera. Well, thank you for your candor.
    Secretary Clinton. Thank you, sir.
    Chairman Royce. Mr. Tom Cotton of Arkansas.
    Mr. Cotton. Good afternoon, Madam Secretary. Thank you for 
coming. We are all here very happy to have you here, very happy 
for your recovery. I know I bring greetings from many of our 
mutual friends in Arkansas.
    Some of our peers on the other side have expressed their 
ambitions for your future. I would like to say that I just wish 
you had won the Democratic primary in 2008.
    Secretary Clinton. I did pretty well in Arkansas.
    Mr. Cotton. You did.
    You said on September 21 that we will not rest until we 
have tracked down and brought to justice the terrorists who 
murdered the four Americans at Benghazi.
    Secretary Clinton. Yes, sir.
    Mr. Cotton. Earlier today, you said, I certainly hope the 
FBI is able to investigate, identify, and hold those 
responsible.
    Does the difference in those two statements reflect any 
concern on your part of the progress of that investigation?
    Secretary Clinton. Well, Congressman, first, 
congratulations. It is good to see you here.
    Mr. Cotton. Thank you.
    Secretary Clinton. No, it does not. But I am conscious of 
the fact that talking about FBI investigations is something you 
have to be extremely careful about, for obvious reasons.
    I think it is clear, or I hope it is clear, that President 
Obama, when he says we are going to bring people to justice 
even if it takes some time, he means what he says. Obviously, 
the FBI is conducting an investigation. What actions are taken 
will be determined in the future.
    Mr. Cotton. What is the United States Government's position 
on the role of al-Qaeda in the Islamic Maghreb and the attacks 
at Benghazi?
    Secretary Clinton. Again, I am not going to prejudge what 
the FBI determines. We know that there are al-Qaeda related 
organizations, as we saw from the pictures that were held up, 
throughout the region, including in eastern Libya. We know that 
people, like we saw with the recent attacks in Algeria, like to 
associate themselves with al-Qaeda.
    But we have to be careful about what that means. Core al-
Qaeda has been severely depleted coming out of Afghanistan and 
Pakistan. What we are dealing with now are the jihadists who 
have been associated with al-Qaeda, who have gained, 
unfortunately, very serious combat experience, coming back to 
the countries that they left in order to go wage jihad in 
Central Asia.
    So whether they call themselves al-Qaeda or Boko Haram or 
Ansar al-Sharia, they are all part of the same global jihadist 
movement. And there may be differences between them, but their 
goals are unfortunately similar and pose threats to us and our 
partners.
    Mr. Cotton. Both the chairman and Mr. Poe have referenced a 
Tunisian suspect who has been released. I believe that is Mr. 
Ali Harzi.
    Secretary Clinton. Right.
    Mr. Cotton. On January 8, it was reported in The New York 
Times.
    Do you find it distressing that the Tunisian Government has 
released that gentleman in light of the hundreds of millions of 
dollars of aid we have given them over the last 2 years?
    Secretary Clinton. At this point, Congressman, I do not, 
for two reasons.
    First, I had a long conversation with high-ranking Tunisian 
officials about this, as did Director Mueller of the FBI when 
he was there in person. We have been assured that there was an 
effort to have rule of law, judicial process, sufficient 
evidence not yet available to be presented, but a very clear 
commitment made to us that they will be monitoring the 
whereabouts of Harzi. And we are going to hold them to that and 
watch carefully.
    Mr. Cotton. Thank you, Madam Secretary.
    Chairman Royce. Mr. Lowenthal of California.
    Mr. Lowenthal. Thank you, Madam Secretary. First, I also 
want to compliment you on your exemplary service. But more than 
that, I really want to say how much I have appreciated your 
openness, your thoughtfulness today, your transparency.
    And what I am struck with in this hearing is a greater 
appreciation of the courage of State Department personnel. I 
think we are left with that understanding of just how 
courageous the personnel have been in taking on assignments 
that in the past never had been taken on before. And you have 
ably, I think, presented to us why that is important, why it is 
important for emerging democracies that we be there.
    My question is very similar to the one of Congressman 
Schneider's, and that was: How do you make that analysis 
between risk and presence? What are some of the obstacles in 
making that? How do we move forward with that? And how does the 
Congress understand some of that kind of balance?
    Secretary Clinton. Well, this is my ongoing hope: That we 
can get it more right than wrong. Let me just make a few points 
because it is an issue that I hope this committee takes very 
seriously.
    First of all, you have to remember that when we talk about 
the State Department and diplomatic facilities, that covers--we 
are the umbrella for so many other agencies in our Government. 
If we were not there, many of those agencies' representatives 
would have a difficult time being there. I mean, we are the 
diplomatic presence that permits us to pursue law enforcement 
objectives, intelligence objectives, military objectives, and 
so much more.
    So it is not just about us sitting around and saying, you 
know, do we really want our diplomats at risk? It is, okay, 
what are the equities of the rest of the government that would 
be affected if we decided we had to close shop because the risk 
was too great? I want to stress that because I don't think you 
can understand, at least from my perspective, how difficult the 
calculation is without knowing that it is not just about the 
State Department and USAID.
    Secondly, I don't think we can retreat from these hard 
places. We have to harden our security presence, but we can't 
retreat. We have to be there. We have to be picking up 
intelligence, information, building relationships. And if we 
had a whole table of some of our most experienced Ambassadors 
sitting here today, they would be speaking with a loud chorus, 
like, you know, ``Yes, help us be secure, but don't shut us 
down. Don't keep us behind high walls in bunkers so we can't 
get out and figure out what is going on.''
    So that is the balance I have been trying to make for 4 
years.
    Mr. Lowenthal. Thank you.
    Chairman Royce. We will only have time for two more 
questions. We will end at 5 o'clock.
    We will go now to Mr. Cook from California.
    Mr. Cook. Thank you, Madam Secretary.
    First of all, I want to compliment you. It has been a long, 
long day. And to survive all these questions and everything, it 
has been tough.
    I want to talk to you about the Marine security guards.
    Secretary Clinton. Yes.
    Mr. Cook. And this is from somebody who spent a long time 
in the Marine Corps but not under the cognizance part of DoD, 
not under the State Department.
    And you had some things in here about additional Marine 
security guard detachments.
    Secretary Clinton. Yes, sir.
    Mr. Cook. And the question is about whether it is prudent 
to task-organize those assets that are organic to you and 
perhaps put them in those areas that have the high-threat 
level. And if you could answer that, I would appreciate that.
    Secretary Clinton. Congressman, that is a very astute 
observation. I mean, we believe that we need to increase both 
our Marine security guard detachments as well as our Diplomatic 
Security and create more synergy and cooperation in these high-
threat posts.
    The Marine security guards, as you know, are very much a 
presence on more than 150 of our posts. And in order to give 
them the facilities and support they need, they need a Marine 
house, they need to be very close to the Embassy. Because if 
you saw the recent movie ``Argo,'' you saw the Marines in 
there, you know, destroying the classified material when the 
mob was outside in Tehran. They are experts at that; they are 
people that are totally relied on by the entire mission.
    But as I said earlier, historically their job has not been 
personal security. So we have to figure out, working with DoD 
and particularly with the Marines, you know--and most of them 
are very young. You know, I take pictures with them everywhere 
I go, and usually the sergeants, you know, are older, more 
experienced, but most of the Marines on duty are quite young.
    We have to figure out how we really take advantage of their 
presence. And that is a conversation we are in the midst of 
with our DoD colleagues. And with your experience, I would 
welcome any insight or ideas you have about how we really do 
use our Marine security detachments better.
    Mr. Cook. Thank you very much.
    I yield my time.
    Chairman Royce. Thank you.
    We will go to Grace Meng from New York.
    Secretary Clinton. Congratulations, too, Grace.
    Ms. Meng. Thank you.
    Thank you, Mr. Chairman, Mr. Ranking Member.
    Madam Secretary, it is wonderful to see you here again. And 
if you have any advice for a fellow New Yorker finding her way 
around this town, please let me know.
    As a woman and as a mom, thank you so much for being a role 
model for women not only in the United States but all 
throughout the world. Thank you for your compassion and 
leadership always.
    I am curious, in the past weeks we have seen the French 
respond decisively to the situation in Mali. The African Union 
has fought well in Somalia. Do you see this as an advancement 
of multilateralism in combating Islamic extremism in the Middle 
East, in Africa? And what more can we ask from allies in that 
area?
    Secretary Clinton. Well, congratulations, Grace.
    And that is an excellent question because I think that is 
exactly what we are coping with right now. I am very proud of 
the work we did with African nations to stand up, financially 
support, and train the AMISOM force that has driven al-Shabaab 
out of the dominant position that it had. That meant putting 
American trainers, working with troops from Uganda, Burundi, 
Djibouti, eventually Kenya, advising some other countries that 
were willing to put in assets. It took money, it took time. But 
we just recognized the new Somali Government, which could never 
have been possible without American support and multilateralism 
because the U.N. was strongly behind it, we got other nations 
to invest.
    What we are looking at now in West Africa is to try to help 
support an African, AU-blessed, ECOWAS-supported troop 
combination from a number of countries to really take the lead 
against the terrorists in northern Mali.
    Again, this is hard. If the United States comes in and does 
something on our own--and I appreciated what Congressman 
Kinzinger said--you know, nobody can match us in military 
assets and prowess. But a lot of the challenges we face are not 
immediately or sustainably solved by military action alone. 
Therefore, we have to get countries in the region to increase 
their border security, to increase their antiterrorist, 
counterterrorist efforts inside their own borders. We have a 
lot to do now in West Africa.
    So I think you are right to point out the United States has 
to play a role, but it needs to be part of a multilateral 
effort in order to have a chance at success.
    Chairman Royce. Thank you, Madam Secretary.
    We have discussed many important issues. I remain concerned 
about whether the Accountability Review Board captured the full 
picture of what happened. But I think we can agree to work 
together moving ahead to improve security in a number of 
different areas.
    This hearing now stands adjourned.
    [Whereupon, at 5:02 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


              Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Material submitted for the record by the Honorable Christopher H. 
    Smith, a Representative in Congress from the State of New Jersey

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
